<html>
<title> - SPACE SHUTTLE COLUMBIA INVESTIGATION</title>
<body><pre>[Senate Hearing 108-838]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-838
 
                  SPACE SHUTTLE COLUMBIA INVESTIGATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
97-865                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 14, 2003.....................................     1
Statement of Senator Allen.......................................     5
Statement of Senator Breaux......................................     6
    Prepared statement...........................................     6
Statement of Senator Brownback...................................    32
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     3
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................    37
Statement of Senator Snowe.......................................    26
    Prepared statement...........................................    29
Statement of Senator Sununu......................................     3
Statement of Senator Wyden.......................................     3
    Prepared statement...........................................     4

                               Witnesses

Gehman, Jr., Admiral Harold W., Chairman, Columbia Accident 
  Investigation Board............................................    11
    Prepared statement...........................................    13
O'Keefe, Hon. Sean, Administrator, National Aeronautics and Space 
  Administration.................................................     7
    Prepared statement...........................................     9

                                Appendix

Response to written questions submitted by Hon. John McCain to:
    Hon. Sean O'Keefe............................................    51
    Admiral Harold W. Gehman, Jr.................................    55
Response to written questions submitted by Hon. Bill Nelson to 
  Hon. Sean O'Keefe..............................................    55


                  SPACE SHUTTLE COLUMBIA INVESTIGATION

                              ----------                              


                        WEDNESDAY, MAY 14, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:33 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Today's hearing is the second 
in a series of hearings to examine the causes of the Space 
Shuttle Columbia accident. I welcome Administrator O'Keefe and 
Admiral Gehman and look forward to hearing from them on the 
status of the investigation, including the Columbia Accident 
Investigation Board's most recent recommendations and NASA's 
plan to return the Space Shuttle flight program.
    It is extremely important that Congressional Oversight 
Committees have access to all critical information in this 
investigation, and I want to fully impress that fact on our 
witnesses. I repeat, it is extremely important that 
Congressional Oversight Committees have access to all critical 
information in this investigation.
    In addition to the Columbia accident, we will also discuss 
NASA funding concerns. I am greatly troubled over the 
increasing pattern of congressional earmarking, and we may 
learn that the funding directives to Members' priority projects 
at the expense of NASA's own funding priorities have led to 
grave consequences.
    Congressional earmarking of NASA funding increased from 
$24.7 million for Fiscal Year 1998 to $167 million in Fiscal 
Year 2003, a 576 percent increase in NASA earmarks. Examples of 
such earmarking which have prevented NASA from allocating 
funding to programs that it considered to be most critical 
include $15.5 million for the Institute for Scientific Research 
in Fairmont, West Virginia, $7.6 million for hydrogen research 
being conducted by the Florida State University System, $2.25 
million for the Life Sciences Building at Brown University, 
Providence, Rhode Island, $1.8 million for the construction of 
a Gulf of Maine Laboratory at the Gulf of Maine Aquarium 
Foundation, and $1.35 million for expansion of the Earth 
Science Hall at the Maryland Science Center in Baltimore, 
Maryland. These are just a few of the egregious earmarks that 
have little or nothing to do with NASA, or certainly its core 
mission.
    While the level of congressional earmarks has grown, NASA's 
overall budget has remained relatively stable. As a result, 
NASA has been forced to do more with less money while facing 
deteriorating infrastructure and safety concerns. I would like 
to hear from Administrator O'Keefe and Admiral Gehman and learn 
their views on how this pork-barrel spending may have affected 
NASA operations, including the Space Shuttle Program.
    In addition, I am concerned that it appears that NASA tries 
to curry favor with a broad base of members by trying to ensure 
that programs affect as many states as possible, even when this 
may not be the most effective or productive use of resources. 
Even more remarkable is when NASA funds a $900,000 Computing 
Information and Communications Program for mobile, wireless, 
and broadband Internet capability that had been, according to 
NASA's Fiscal Year 2003 operations plan, quote, ``inadvertently 
dropped as an earmark,'' unquote, from the 2003 Omnibus 
Appropriations Conference Report. I urge the Administrator to 
conduct a thorough review of all NASA's funding plans to ensure 
they are oriented to meet the legitimate needs of NASA's 
missions.
    Other important issues that need to be examined today 
include NASA's culture and the concerns of NASA employees about 
Columbia's safety, the National Imagery and Mapping Agency and 
why it was not used to take on on-orbit images of the 
Columbia--we have heard conflicting stories on that particular 
aspect of the Columbia's tragedy, and we would hope that will 
be cleared up; the impact of the Columbia accident on the 
construction of the International Space Station; the safety of 
the Soyuz, which is currently the only transport to and from 
the Space Station; and congressional access to privileged 
information from the CAIB investigation.
    I look forward to an informative hearing this morning and, 
again, thank the witnesses for appearing today.
    Senator Hollings?

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Well, thank you, Mr. Chairman. I will 
just file my prepared statement, with only this comment.
    The distinguished Chairman has just allowed that we at the 
congressional level expect to receive all statements and all 
materials. The Chairman more or less gives that command like he 
is still in the Navy, but that is not what has happened. As I 
understand, from the news reports, you have given 
confidentiality to those giving statements to make darn sure 
that the Congress does not receive all materials of the 
investigation.
    So point one, I am disturbed about the investigation 
itself, because we went through with this with Challenger. This 
accident looks like the same act, same scene, with no regard 
for safety for the Columbia. I will just leave it at that, and 
we will have some questions.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    On February 1, America lost seven heroes. Today, the Committee, our 
witnesses, and NASA have the responsibility to learn from this tragedy 
so that we will not repeat the mistakes that led to this accident.
    Mr. Chairman, those of us who have been on this Committee for many 
years are experiencing a sense of deja vu. Some of the problems 
highlighted by the Challenger accident are eerily present again. It 
seems that some of the lessons that we learned about quantifying risk 
and evaluating near-misses were learned and then forgotten in the 
ensuing years.
    For example, since the first Shuttle flights more than 20 years 
ago, pieces of the external tank's insulating foam have come off during 
ascent to orbit many times. But the Shuttle's tiles and reinforced 
carbon-carbon were not designed to absorb debris hits. NASA engineers 
issued waivers, then tried to eliminate foam shedding; but never fully 
succeeded. Last October, Atlantis shed a much larger piece than normal 
which struck the solid rocket booster. Yet, two flights later, not a 
single mention of foam trouble was made in Columbia's ``flight 
readiness review,'' the vigorous pre-flight discussion of safety 
issues.
    While there is no question that we will continue to send humans to 
space, we must put everything else on the table. Today we begin at 
square one--how and why did the Columbia Accident happen and what does 
it mean? How does NASA deal with problems, including seemingly 
innocuous ones such as foam shedding that have such tragic 
consequences? What are the demands of space flight, and is NASA as an 
agency, or are we as a nation prepared to step up to them?
    We are not asking questions like these to find blame nor to wander 
from the path that the heroes of Mercury, Gemini, and Apollo laid out 
before us. Rather, we want this hearing to begin to inform the larger 
questions that the Committee will need to address after Admiral Gehman 
and his colleagues have finished their report.
    How do we go about fulfilling the charter that John F. Kennedy 
originally laid out for us, to do these things because they are hard, 
not easy. For too long, we have avoided dealing with the hard questions 
about the future of space. We want today's hearing to begin take us to 
a place from where we can see our way forward into space, not backward, 
perhaps more clearly than we have ever seen this distance before.
    Thank you Mr. O'Keefe and Admiral Gehman for being with us today.

    The Chairman. Thank you, sir.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    Welcome, Administrator O'Keefe and Admiral Gehman. I am 
looking forward to the testimony. I know there has been a 
tremendous amount of work done, and I think, at the very least, 
we owe a great deal of thanks to all of the personnel that have 
been on the ground, volunteers--I mean, literally thousands of 
them working hours and hours and hours to make sure that, to 
the best of our ability, we have as much material as possible 
to draw sound conclusions from through the investigation. So 
welcome, and I look forward to your testimony.
    The Chairman. Senator Wyden?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    I, too, want to welcome our witnesses and thank them for 
their cooperation. There are a number of areas I want to 
explore this morning. One involves the preliminary 
recommendations that have been received from the Accident 
Investigation Board. There are two preliminary recommendations, 
one calls for the comprehensive inspection plan to determine 
the structural integrity of the reinforced carbon-carbon system 
components, and the second is to modify NASA's agreement with 
the National Imagery and Mapping Agency to use satellites to 
make on-orbit imaging for each Shuttle flight a standard 
requirement.
    When I learned about these two recommendations, and I 
recognize these are both, preliminary recommendations, what 
really struck me is, ``Why were these recommendations not put 
in place prior to the tragedy?'' I think this would be an area 
that I would want to explore with you, Administrator O'Keefe, 
because you just say to yourself, it seems really tragic that 
current inspection techniques are not adequate to assess the 
structural integrity of the reinforced carbon-carbon supporting 
structure and attaching hardware. And I think my questions in 
this area would be twofold. One, why was it not done before the 
tragedy? And second, what is being done currently to implement 
the recommendations?
    The other area, Mr. Chairman, that I want to look at is 
this question of the way technical analyses are used by the 
agency. Of course, the concern here, as has been reported 
widely in the press, is that NASA managers refused to seek the 
photographs of the damaged Shuttle, and the engineers were 
making pleas that it be done so. I recognize this deals with 
the memorandum that you all sent to the Committee, but I think 
I would like to explore this some more, and I will be asking 
about that, Administrator O'Keefe.
    Mr. Chairman, I am glad you are doing this. To me, there 
really is not anything more important than the oversight 
function of the United States Congress, and I appreciate the 
fact that you are bringing us here on a host of the key issues 
to look at these matters. I look forward to our witnesses.
    [The prepared statement of Senator Wyden follows:]

     Prepared Statement of Hon. Ron Wyden, U.S. Senator from Oregon

    Today the Committee will hear from Admiral Gehman, who by all 
accounts is leading a thorough and objective investigation of the 
Columbia tragedy of February 1. In my view, it is important that 
Congress evaluate the findings of the Admiral's investigation as 
thoroughly and objectively as he has conducted it.
    The Economist recently reported that ``NASA spends the lion's share 
of its $15 billion annual budget on manned spaceflight,'' and then 
asked the question ``Should it?'' I believe that now is the time to 
reexamine the nation's mission in space and perhaps reallocate our 
resources. In the joint House and Senate hearing on the Space Shuttle 
Columbia tragedy on February 12, I told NASA Administrator Sean O'Keefe 
that I personally believed more unmanned space flights would guarantee 
the most efficient use of resources. In my view, it is time to ask 
whether research projects currently within the space shuttle program 
can be conducted efficiently and effectively on an unmanned vehicle. In 
addition, now is the time to make sure that manned space flights are 
safer and more efficient as well. While we are here today to discuss 
the accident investigation, we must keep in mind the broader picture 
and think about establishing a new course for the future of our space 
program. We owe the men and women of the Space Shuttle Columbia that 
much.

    The Chairman. Thank you, Senator Wyden.
    Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, for having this 
hearing.
    And, Administrator O'Keefe and Admiral Gehman, thank you 
for appearing before this Committee. And, more importantly, I 
want to commend you for your tireless, your honest, and your 
open efforts in the last three-and-a-half months since this 
disaster occurred.
    Briefly, I would like to make three points. First, Admiral 
Gehman and Administrator O'Keefe, I think you all have done an 
outstanding job in responding to the concerns of Congress and 
responding to our concerns insofar as the investigation Board 
and its independence from NASA. When one looks at this tragedy 
compared to that of the Challenger, the Columbia investigation, 
in my view, is certainly more expeditious and certainly more 
forthright; not to criticize the other, but I think you have 
made a substantial, significant, and noticeable improvement in 
that openness, forthrightness, and the speed in which you are 
sharing that information and getting on it. I think that those 
efforts are helping us, and you are to find the underlying and 
contributing causes of this tragedy.
    Secondly, I want to echo and underscore previous comments 
about NASA's human space flight program. Virtually every aspect 
of NASA depends on the success of the Shuttle and the human 
space flight program. Generally, I look at space flight as a 
means to a greater end, which is research and discovery and 
exploration, and I know the brave crew of the Columbia engaged 
in a wide variety of scientific research; in fact, research 
that only could be done in space. I truly believe that if 
anything good can come out of this tragedy, it would be a 
reinvigorated focus on NASA and its primary mission of 
scientific research that actually benefits people here, life 
here on this planet. Some of the comments of the Chairman, in 
my view, to the extent you end up funding extraneous matters 
that are not the primary focus of NASA, it diminishes that 
capability.
    Now, finally and thirdly, I have previously raised concerns 
about NASA in the area of one of its primary functions, which 
is aeronautics, and also, insofar as space is concerned, the 
advancements in technology; specifically, embracing some of the 
advancements in nanotechnology, that I know Senator Wyden 
shares my views on, as well as automation and robotics that 
could potentially minimize the risks associated with human 
space flight. I am interested in learning any specific areas 
where NASA is embracing some of these advancements in 
automation and robotics, which I believe are essential for us 
here in Congress, as well as NASA, to work together to get that 
right balance of humans, as well as the advancements in 
robotics and automation to function in these scientific 
research projects that are done in space.
    And I thank you, Mr. Chairman, for having this hearing, and 
thank both gentlemen for your leadership.
    The Chairman. Thank you.
    Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman.
    Very briefly, I think that it is good that we are having 
this hearing. Out of the tragedy of Columbia, hopefully, can 
come some good, and hopefully the good will be an assessment of 
where we are and where we need to be, what steps need to be 
taken to make sure that the launch vehicles for future flights 
are safe and dependable. And I think that hopefully we can 
start focusing in on what we need to do to meet the needs of 
the future after we determine the reasons for the accident 
itself.
    One of the things that has given me great concern is that 
there is no replacement vehicle for the Space Shuttle. Not only 
is there not a replacement vehicle, there is not even anything 
on the drawing Board. And if somebody came to the Administrator 
tomorrow with the best designs for a new vehicle, it would take 
a substantial amount of time to put that vehicle into 
construction and, ultimately, into use. I mean, these are 15-, 
20-year projects, at the very least. And right now I think the 
failure of all of us is that we have not made preparation for 
what is going to come after the Shuttle, and it's not a one-
week proposition; it's a 15-, 20-year proposition. And right 
now there is nothing on the drawing Boards, and I think there 
is probably a lot of fault to go around for all of us as to why 
that is the situation.
    But we thank our witnesses this morning.
    [The prepared statement of Senator Breaux follows:]

   Prepared Statement of John B. Breaux, U.S. Senator from Louisiana

    The future of space flight will be composed of many things, 
including a vehicle we trust, a program that makes sense and has a 
clear and undeniable purpose, and an institution we think is designed 
to take on the challenges of the future.
    NASA was originally designed to take on a single challenge, single-
mindedly, and work until it was achieved. Since then, NASA has taken on 
many other challenges that compete for NASA priority and compete for 
funding in the national debate about space.
    While we have seen steady progress in some areas of space--
including the marvels of the Hubble and our recent visits to the 
planets Jupiter and Mars--we have seen many missteps in the human space 
program, particularly in attempts to generate a second generation of 
reusable launch and service technologies. Now, with the loss of 
Columbia, we are far behind in these efforts, with no clear agenda 
forward that we can see.
    Today is a stage-setting hearing. We are anxious to hear the views 
of Admiral Gehman about the accident he's been examining, and to hear 
Mr. O'Keefe's response. And we are anxious to determine what happened 
and what it means, how fast we can recover, and, at the end of process 
that has yet to have begun, where we are going.
    For too long we have had a national program in space, but not a 
national commitment to space flight. The accident that occurred last 
February is not the fault of any single individual--it is the fault of 
anyone who did not contribute their best to this program that a very 
few, our astronaut heroes, commit their lives to and others commit 
their careers to.
    Mr. Chairman, I think the future looks different from the past, but 
I cannot today tell you how: A different vehicle; a different ambition; 
a different way of doing business. Today is our first attempt to visit 
these questions at a time I believe will be seen as a turning point in 
the future of space. Let us get on with the debate, because our space 
program has been waiting a very long time for this discussion.

    The Chairman. Thank you, Senator Breaux.
    I want to thank Administrator O'Keefe and Admiral Gehman 
for their outstanding work. We will have some tough questions, 
and I hope we can have some meaningful exchanges. But none of 
that, I believe, will diminish the respect and appreciation 
that we have for both of you and your service to this Nation. 
We thank you.
    Administrator O'Keefe, begin with you, please.

        STATEMENT OF HON. SEAN O'KEEFE, ADMINISTRATOR, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Well, thank you, Mr. Chairman and Members of 
the Committee.
    Much has happened, I guess, since we last had an 
opportunity, February 12th, for this Committee and the Joint 
Committee with the House Science Committee, to discuss the 
specific aspects of the Columbia tragedy.
    First and foremost, over the course of the six weeks after 
the tragedy, I have personally attended nine separate memorial 
services and every funeral, which--I am still stunned, I think, 
by the extraordinary effort that the Air Force, and the Navy, 
particularly, went to render full honors to all of the members 
of the crew of Columbia. It was an extraordinary effort, and I 
think it honored and respected their memory in an extraordinary 
way.
    The recovery effort that occurred over the course of the 
last 100 days was equally impressive and one that I do not 
think anybody expected we would recover much more than about 10 
percent of the orbiter. Instead, over the course of that time, 
better than 20,000 people in 200 different federal, state, and 
local agencies and departments from the State of Texas, State 
of Louisiana, the various communities, as well as the Federal 
Government, conducted the most impressive interagency, 
intergovernmental recovery effort that has ever been recorded. 
And, in the course of that time, there was no less than about 
6,000 people in the East Texas/West Louisiana area that were 
engaged actively every single day in working through an area 
that is depicted on this particular chart, from a little 
southeast of Dallas, Texas, into Vernon Parish in Louisiana, 
that is the equivalent of--250 miles and about ten miles wide--
this is the equivalent, in acreage, to the size of the State of 
Rhode Island. And the teams from NASA, the U.S. Forest Service, 
the Environmental Protection Agency, and countless state and 
local agencies and departments literally walked every single 
acre of that area and recovered now what is the better part of 
about 40 percent of the orbiter and what is equivalent to about 
83,000 tons of the orbiter itself, which has now been shipped 
to the Kennedy Space Center.
    Our activities in that area demonstrate, I think, some of 
the most remarkable efforts at interagency cooperation that is 
a model for how that cooperative effort can be conducted in 
pursuit of a common objective in ways that there were 
absolutely no--and every single trip I made to the area was 
stunned to see that there were absolutely no conflicts between 
and among agencies, between state and local officials. The 
Federal Emergency Management Agency conducted the primary 
coordination of that effort, but it was one that required 
little cooperative assistance or instigation on their part. It 
was extremely well-handled and one that we are extremely proud 
of and thankful to the Governor of the State of Louisiana and 
the Governor of the State of Texas for their extraordinary 
contributions, as well as cooperation, as we worked through 
this.
    This particular land area, I think, is--and, I guess, in 
the category of remarkable developments, as well--is occupied 
by about 400,000 citizens in a stunningly--inasmuch as this was 
tragic and horrific for the loss of seven very important lives, 
it is amazing that there were no other collateral-damage 
efforts as a result of it. No one else was injured, all of the 
claims have been very, very minor in dealing with these issues. 
But an awful lot of debris was recovered, and the wreckage 
itself has been, again, now reassembled, in large measure, at 
the Kennedy Space Center, which is informing the investigation 
in ways that we are exceeding our expectations in many 
respects. I will certainly defer to Admiral Gehman on this 
commentary on that point.
    As it pertains to the cooperation with the Board itself, 
there is no element of what they may desire, require, or need 
that we have denied. And, indeed, our effort has been to 
cooperate with the Board on each and every issue that is 
necessary in order to reach a common objective, which is to 
determine the truth, find the facts and the evidence to support 
exactly what happened and how we may go about the process of 
fixing it and return to flight safely as soon as we can.
    In that regard, the return-to-flight efforts that we have 
engaged in is, rather than wait for the final report to be 
released, as Senator Breaux alluded, and Senator Wyden, as 
well, there are a series of recommendations that the Board has 
released as findings and recommendations thereafter that we are 
beginning to implement now rather than waiting for that 
activity to be in its totality. Our effort is to follow the 
better than nine separate public hearings that have been 
conducted, as well as the public commentary that has been 
offered by the Board, in order to inform the kind of approaches 
we need to take to return to flight expeditiously, but safely 
in doing so. So there is a range of different recommendations 
and findings that they have come up with that we are beginning 
now to implement, and we will continue throughout the course of 
their activity to engage in that activity as rapidly as we 
possibly can.
    Finally, I do want to thank the Board members for their 
diligence, their literally six/seven-day-a-week activity that 
they have conducted for the past 100 days. They were appointed 
and assembled on the very first day of the accident, and have 
been unceasing in their efforts since then to find the truth 
and to find the evidence to support what happened on that day 
so we may make those corrections and move on to safe flight 
again.
    In particular, I want to thank Admiral Gehman, who 
responded to my call hours after that horrific accident and 
pulled him out of retirement--blissful, I think, retirement--in 
which he certainly had lots of other things to do than return 
to public service in this situation. He has been relocated to 
Houston, Texas, for the entire three-month period since that 
time and has conducted what I think is a very thorough effort 
to date at this point.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. O'Keefe follows:]

   Prepared Statement of Hon. Sean O'Keefe, Administrator, National 
                  Aeronautics and Space Administration

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before the Committee with Admiral Gehman to 
discuss our ongoing efforts to honor the solemn pledge we have made to 
the families of the crew of Columbia and to the American people. That 
pledge is that we will find out what caused the loss of the Space 
Shuttle Columbia and its crew, correct what problems we find, and 
safely continue with the important work in space that motivated the 
Columbia astronauts and inspired millions throughout the world.
    Much has happened since I appeared before this Committee and the 
House Committee on Science at a joint hearing on February 12, less than 
two weeks after the tragic accident.
    Most importantly, a grateful Nation has laid to rest with full 
honors six American heroes: Rick Husband, William McCool, Mike 
Anderson, Dave Brown, Kalpana Chawla and Laurel Clark. The people of 
the state of Israel also paid their final respects to Israel's first 
astronaut, Ilan Ramon. We continue to be sensitive to, and supportive 
of, the needs of the astronauts' families and will be at their side as 
long as they desire our support.
    We appreciate that the FY 2003 Omnibus Appropriations Act included 
$50 million in funding to help pay for the costs of the recovery 
operation and accident investigation by the Columbia Accident 
Investigation Board (CAIB). We have established new accounting codes in 
the NASA financial system, titled Columbia Recovery and Investigations, 
to capture these costs. We are monitoring very closely the costs 
associated with this effort and we will ensure that Congress is kept 
apprised of our continued progress.
    I would like to thank the Committee for their expeditious enactment 
of the Columbia Orbiter Memorial Act which authorizes construction of a 
Memorial at Arlington National Cemetery in recognition of the STS-107 
Columbia astronauts. In addition, NASA has established the NASA Family 
Assistant Fund which enables NASA employees to help provide for the 
families of the STS-107 crew and families of other NASA employees who 
have lost their lives while serving the Agency.
    NASA is deeply grateful for the support we have received during 
recovery operations from the men and women from the Department of 
Homeland Security, including the Federal Emergency Management Agency, 
National Transportation Safety Board, Environmental Protection Agency, 
Federal Bureau of Investigation, Department of Defense, Department of 
Transportation, U.S. Forest Service, U.S. Park Service, Texas and 
Louisiana National Guard, State and local authorities, and private 
citizen volunteers who have helped us locate, document, and collect 
debris. In visiting with these folks, I can report to the Committee 
that the morale and commitment of the recovery team was an inspiration 
to me and to the entire NASA family. The outpouring of support from the 
local businesses, community leaders and the citizens of East Texas have 
especially humbled us. During the past three months there were 
approximately 5,700 personnel in Texas at any one time involved in the 
Shuttle material recovery. More than 20,000 people in all helped with 
this effort.
    The recovery operations, which stretched from San Francisco, 
California to Lafayette, Louisiana, are essentially complete. Nearly 
85,000 pounds of debris have been recovered, representing approximately 
38 percent of Columbia's dry weight. Of the nearly 83,000 specific 
items recovered from the accident, more than 79,000 have been 
identified, with 762 of these coming from the left wing of the Orbiter. 
We are continuing to search some remote areas in western Texas, Utah 
and New Mexico.
    As of May 5, the Lufkin Operations Center had completed searches in 
all 169 Texas counties that reported Shuttle material sightings. The 
Lufkin Center closed on May 10 and we have transitioned to a smaller 
scale Recovery Operations Center located at the Johnson Space Center in 
Houston. We are hoping that in the fall, when vegetation dies back, 
hunters and campers may find additional debris. In fact, directions for 
reporting any debris will be given to each hunter as he or she applies 
for licenses.
    I am saddened to note that one of the helicopters searching for 
debris from the Space Shuttle Columbia crashed in the Angelina National 
Forest in east Texas on March 27. Buzz Mier, the pilot and Charles 
Krenek, a Texas Forest Service Ranger were killed in the crash, and 
three other crewmembers were injured. Our thoughts and prayers go out 
to the families of the helicopter crew members killed in the accident.
    Using video of Columbia's re-entry provided by research 
institutions and helpful citizens, along with radar and telemetry data, 
we have identified several additional search areas in West Texas, Utah 
and New Mexico. To date, no material in these areas has been positively 
identified as coming from Columbia.
NASA Cooperation With Columbia Accident Investigation Board
    The investigation of the CAIB is progressing. NASA recognizes the 
need for a credible and thoroughly independent inquiry and is fully 
cooperating with the Board.
    The Contingency Action Plan and Standing Investigation Board were 
activated within an hour after the Columbia accident. This standing 
Board was the result of the lessons learned from the Challenger 
accident in 1986, which indicated the importance of having a panel of 
qualified investigators ready to initiate work immediately following an 
accident. Subsequent to the Board's formation, we received advice and 
counsel from Members of this Committee, as well as your colleagues in 
the House of Representatives and others, that the Board's charter 
should include revisions to guarantee its complete independence in the 
investigation and to ensure that the investigation be as thorough as 
possible. NASA has been responsive to these suggestions and has moved 
expeditiously to make appropriate changes to the charter and to add 
members to the Board to expand its composition.
    More broadly, across our entire organization, NASA personnel are 
cooperating with the work of the CAIB. We continue to coordinate and 
categorize the collection of debris along the path of Columbia's re-
entry and reconstruct the orbiter at the Kennedy Space Center. We are 
collecting and providing the Board with integrated image analysis and 
data. We are conducting fault tree analyses to look at all possible 
causes of the accident that the Board will independently validate.
    In summary, the men and women of NASA fully understand and support 
the important work of the CAIB. We look forward to learning from and 
acting on the Board's recommendations.
Status of International Space Station and Hubble Space Telescope
    While waiting for plans to be made for their return to Earth, the 
ISS Expedition 6 crew--Commander Ken Bowersox, Science Officer Donald 
Pettit, and Cosmonaut Flight Engineer Nikolai Budarin--continued to 
perform science and routine ISS maintenance on orbit. The Expedition 7 
crew--Edward Lu and Yuri Malenchenko--arrived at the ISS aboard the 
Soyuz early Monday, April 29. The Expedition 6 crew returned to Earth 
on May 3.
    In the absence of Shuttle support, NASA and the International 
Partners are addressing contingency requirements for the ISS for the 
near-and long-term. In order to keep the Expedition 7 and future crews 
safe, we must ensure that they have sufficient consumables, that the 
ISS can support the crew, and that the crew is able to return safely to 
Earth.
    Working closely with our International Partners, we have confirmed 
that the ISS has sufficient propellant to maintain nominal operations 
through at least the end of this calendar year. With the docking of the 
Progress re-supply spacecraft on February 4 (ISS Flight 10P), the crew 
has sufficient supplies to remain on the ISS through August without 
additional re-supply. The next Progress flight is scheduled for June. 
As we move beyond June, however, potable water becomes the constraining 
commodity. We are currently working closely with our Russian partner, 
Rosaviakosmos, to explore how best to address this issue on future ISS 
re-supply missions.
    All remaining U.S. manufactured International Space Station 
hardware for the Core Configuration has been delivered to the Kennedy 
Space Center and element ground processing is on schedule. The Node 2 
module for the Space Station, built for NASA by the European Space 
Agency, will be delivered to the Kennedy Space Center by early this 
summer. Only one Space Shuttle mission to the Space Station in the 
critical path to U.S. Core Complete, STS-118, was scheduled to use 
Columbia. A revised U.S. Core Complete assembly schedule and subsequent 
deployment of international partner modules after installation of Node 
2 will be confirmed when the Shuttle is ready to return to flight 
status.
    With respect to the Hubble Space Telescope, all of our remaining 
Shuttle Orbiters are capable of supporting any necessary servicing 
missions. Currently, the Hubble Space Telescope is performing well, and 
this robust observatory is in no immediate need of servicing. Should a 
delay in the planned November 2004 servicing mission occur that impacts 
the Telescope's ability to perform its science mission, the Hubble can 
be placed in safe mode until a servicing mission can be arranged.
Anticipating a Return to Flight
    We have begun prudent, initial planning efforts to prepare for 
``Return to Flight'' in order to be ready to implement the findings of 
the CAIB. NASA's Return to Flight analysis will look across the entire 
Space Shuttle Program to evaluate possible improvements in safety and 
flight operations in addition to implementing all of the 
recommendations of the Board.
    I have selected Dr. Michael A. Greenfield, the Associate Deputy 
Administrator for Technical Programs, to lead our Return to Flight 
activity along with William Readdy, our Associate Administrator for 
Space Flight. They will co-chair the newly formed Space Flight 
Leadership Council. The Council is composed of the Associate 
Administrator for Safety and Mission Assurance, the Deputy Associate 
Administrator for International Space Station and Space Shuttle, and 
the four Space Flight Center Directors. The Council will review and 
assess each course of action recommended by the Return to Flight 
Planning Team and provide direction to the Space Shuttle program for 
implementation. The Return to Flight Planning Team is already working 
to incorporate the CAIB's first two preliminary recommendations into 
the Return to Flight strategy.
    In the interest of assuring that NASA fully addresses each of the 
CAIB's recommendations, I have asked Tom Stafford to lead a team that 
will provide an independent assessment of NASA's strategy for 
implementing the CAIB's recommendations. We are working to define the 
full membership of the team.
    I would also like to thank Admiral Gehman and the rest of the Board 
members for the thorough and diligent manner in which they are 
conducting their investigation. We are grateful for their efforts. We 
will make our human space flight program better and safer because of 
their work.
    As I stated earlier in my testimony, we still have a long road to 
travel until we can return the Shuttle to flight. The lessons of past 
accident investigations tell us that we have reached a critical 
juncture in the process of evidence gathering and analysis at which 
patience is absolutely required. I commend the Members of this 
Committee for their support of this vital investigation. We at NASA 
look forward to continuing to work with the Committee to ensure that we 
learn from this accident, move forward to develop and utilize the 
capabilities that can best and safely help us achieve our national 
objectives in Aeronautics and Space Research and Exploration.
    Mr. Chairman, thank you for calling this important hearing. I look 
forward to responding to your questions.

    The Chairman. Thank you.
    Admiral Gehman?

STATEMENT OF ADMIRAL HAROLD W. GEHMAN, JR., CHAIRMAN, COLUMBIA 
                  ACCIDENT INVESTIGATION BOARD

    Admiral Gehman. Good morning, Mr. Chairman, Senator 
Hollings, Members of the Committee. I appreciate the 
opportunity to appear before you this morning.
    Rather than read my statement, I will just ask that it be 
entered into the minutes, and I will just----
    The Chairman. Without objection.
    Admiral Gehman. Thank you very much. And I will just make a 
couple of brief points, and we can get on to business.
    First of all, I would like to introduce a couple of my 
fellow Board members, who are here today. Seated behind me is 
Mr. Steve Wallace, the Chief of the Aviation Safety Division of 
the FAA, and Dr. John Logsdon, from George Washington 
University, who is the Chair of the Space Policy Division.
    The Chairman. Welcome.
    Admiral Gehman. And also, the real strength behind my move 
to Houston, my wife, who's sitting behind, me, too.----
    The Chairman. Welcome, Mrs. Gehman.
    Admiral Gehman.--Members of the Committee----
    The Chairman. Thank you for your service.
    Admiral Gehman.--Members of the Committee, I am delighted 
to appear before you and answer all of your questions fully and 
completely on any matter that you would like to hear about. I 
would have to say, however, that this report is not written. 
And I will be delighted to give you my personal opinion, but 
this is a Board of 13 members, some of whom feel very strongly 
about some of these matters, and I do not want to overstate our 
progress or get ahead of my headlights here. Many of the things 
that you are interested in the Board has not decided upon.
    So I will have to caveat my answers by, when I know that 
the Board is comfortable with a subject or when the Board has 
not even addressed the subject yet, and give you my personal 
opinion. So if you will excuse me for that caveat right at the 
beginning, that I am delighted to give you an interim report, 
but we have not written this report yet.
    The intent of our Board is to provide you with an 
independent analysis and an independent review of not only this 
accident and what caused it, but also a deep, rich, complete, 
and intrusive inquiry into the entire manned space flight 
program. The goal of our Board is to hit the target. The target 
is determined by you, the Members of Congress. And in my 
dialogue with Members of Congress, which I have found very 
helpful, I have noticed that the target tends to move a little 
bit, which is perfectly all right. And it is that dialogue 
which allows me to adjust my aim, adjust my sights, so that we 
meet your requirements.
    Several Members of Congress have indicated to me that when 
my work is finished, yours is just beginning, and, ``Please 
don't hand me a half-baked loaf,'' and I understand that.
    Our intent is to give you a complete, rich, deep review of 
this program, a review which has not been conducted before by 
any other Board. And in order to do that, we are using some 
old, well-proven, tested tools that get into the culture and 
the attitudes and the processes and the management and the 
climate that cannot be gotten into by any other way.
    Mr. Chairman, you, as a naval aviator, are very familiar 
with the safety-review process that is used in several 
agencies, and we have found, over the years, that that is a 
process that allows you to get a look at an organization that 
you cannot get by any other process.
    So you really have two investigations in one here. You have 
an accident investigation, what happened, that is being done in 
complete public, with full disclosure, public hearings, interim 
recommendations, lots of press conferences, plenty of 
oversight; and then we have a safety investigation, which is 
being conducted in accordance with procedures that have been 
set up by several agencies in the Executive Branch, which 
allows you to get the kind of look that you cannot get any 
other way. It is the opinion of the Board that that will allow 
us to write a report which will be of aid to Congress in a way 
that no other review of NASA has ever given you before, and it 
cannot be done any other way, in our opinion.
    The Board is fully aware of the oversight responsibilities 
of Congress. We are fully aware of your requirements. And we 
are meeting right now, our staffs are meeting right now, to 
find a way to fully meet all of your requirements in some 
fashion or another, which I am advised, even though I am not an 
expert at this, that these processes have been worked out 
between the Executive Branch and the legislative branch many 
times before, and there are processes to allow you complete 
access to anything you want to see. So until we agree on all of 
what those processes are, I do not want to get ahead of myself 
here. But I do not see this as a problem, meeting the oversight 
responsibilities of Congress in a way that is satisfactory to 
you.
    Meanwhile, the Board wants to hold onto this tool, which is 
going to give you a better product, and a product that you will 
not have had the advantage of having before. Enough said on 
that.
    This Board is completely independent. Contrary to some of 
the--I have got to watch my words here--headlines of the past, 
NASA does not pay our salaries; you pay our salaries. The 
Congress enacted a $50 million grant to conduct this 
investigation. NASA keeps the books for me, but I spend that 
money. So somehow suggesting that members of this Board are 
influenced by the way the records are kept, I find to be 
somewhat naive.
    I also would like, on behalf of the Board, to recognize and 
acknowledge the work of the thousands and thousands and 
thousands of volunteers who have spent weeks and weeks walking 
through the State of Texas picking up debris. This serves two 
purposes, one of which is a public-safety purpose, because some 
of this debris is hazardous, and to get it up and out of the 
ground and out of the streets and schoolyards and public places 
is very important.
    The second point that I would make is that it turns out 
that the analysis of this debris and the reconstruction of this 
debris has been very important to this Board's work. It turns 
out it was more important than we ever thought it would be. We 
have learned a lot of things from analyzing and learning from 
the debris. So it turns out that that work turned out to be 
more critical and more important than we thought it would be at 
the first, and we owe a great debt of gratitude to a whole lot 
of people who are never going to get their names in the paper 
and their pictures on the paper. So I would like to second 
that, too.
    Let us see. And I think that with the exception of the 
points that I make in my prepared statement, I think that I 
best could serve this Committee if I stopped and responded to 
the questions.
    Thank you for the opportunity, Mr. Chairman.
    [The prepared statement of Admiral Gehman follows:]

Prepard Statement of Admiral Harold W. Gehman, Jr., Chairman, Columbia 
                      Accident Investigation Board

    Good morning Mr. Chairman, Senator Hollings, distinguished Members 
of the Committee.
    It is a pleasure to appear today before the Commerce, Science and 
Transportation Committee. I thank you for inviting me and for the 
opportunity to provide an update on the progress of the investigation 
into the tragic loss of the Space Shuttle Columbia and her courageous 
crew of seven.
    My intent today is to provide the Committee with the latest 
information on the progress and direction of the Columbia Accident 
Investigation Board and its three and a half months of investigation. I 
am prepared to explore any area in which you or the Committee are 
interested; however, in order to be concise I've limited my prepared 
remarks to these three areas:

 <bullet>   The Board itself

 <bullet>   The accident investigation

 <bullet>   Matters beyond the initiating event

I. The Board Itself
    Within an hour after the accident, Administrator O'Keefe activated 
the accident contingency plan and the standing mishap Board that was 
called for by NASA procedure--a procedure adopted based upon lessons 
learned from the Challenger accident. The standing Board, excluding the 
Chairman, had seven members appointed by position, not name. These are 
positions such as the Commander of the Air Force Safety Center, the 
Commander of the Navy Safety Center, the Director of the Federal 
Aviation Administration's Office of Accident Investigation and the 
Division Manager of the Department of Transportation's Aviation Safety 
Division, among others. These experts are all Federal Government 
employees. They are arguably some of, if not the, most experienced and 
knowledgeable aircraft accident investigators in the world.
    To augment this standing Board, we immediately started adding non-
government, non-NASA people, starting with me. As the need for 
additional expertise and the amount of actual work grew, I added, in my 
capacity as Chairman of the Accident Investigation Board, a total of 
five more non-government, non-NASA Board members. This brings us to 
where we are now: Thirteen Board members, which just happens to be the 
same as the number of members of the Rogers Commission. Only one of 
these professionals has any significant connection with NASA.
    I want to emphasize that our Board members are active 
investigators, not passive listeners. We are in session seven days a 
week and have been since the first week. We have developed a staff that 
is almost exclusively non-NASA. We are following many precedents set by 
the Rogers Commission, including using the Department of Justice to 
archive records and using frequent public hearings to allow our 
progress to be monitored by all of our constituents. We are taking all 
possible advantage of other organizations with applicable expertise. 
These include, among others, the National Transportation Safety Board, 
the Department of Defense, the National Oceanic and Atmospheric 
Administration, the National Safety Council and the Federal Emergency 
Management Agency, just to name a few.
    Mr. Chairman, as a Naval Aviator, I am sure you will appreciate the 
significance of the Board's extensive use of the special tools 
available to us under the rubric of a safety investigation. We are 
gaining insights into areas we would not be privy to under other 
investigatory models. The benefit of this process will flow directly to 
you and your Committee in the form of a deeper and much more complete 
view into Shuttle Program processes, management, safety programs and 
quality assurance.

II. The Accident Investigation
    The Board has made excellent progress in gaining a precise picture 
of the environment and forces acting on the Columbia in her last ten 
minutes of flight. Through detailed and exhaustive scientific and 
engineering analysis and through just plain hard work, we have 
determined the facts related to the loss of the Shuttle and her crew. 
While I cannot lay out for you with absolute certainty the entire chain 
of events that led to this catastrophe, I can tell you that the pieces 
of this puzzle, particularly regarding the mechanics of the accidents, 
are fitting together with increasing precision and consistency.
    As a means for cross-checking the consistency of our evidence and 
findings, we are simultaneously building six separate ``pictures'' or 
scenarios of the accidence sequence. These ``pictures'' may be labeled:

 <bullet>   The aerodynamic scenario

 <bullet>   The thermodynamic scenario

 <bullet>   The detailed system timeline from telemetry and recovered 
        on-board recorder

 <bullet>   The photographic and videographic scenario

 <bullet>   The story the debris reconstruction and analysis tell us, 
        and

 <bullet>   The story the records of maintenance and modification work 
        tell us . . . .

    We have developed each picture quite accurately; we then overlay 
the scenarios one on the other to find the best fit. All six scenarios 
point toward the same conclusion: that the Columbia entered the Earth's 
atmosphere with a pre-existing deformation in the leading edge of the 
left wing. That deformation allowed super-heated air, well above 3,000 
+F, to get into the wing's internal structure over a period of 10 
minutes. After a few minutes, the heat-damaged wing began encountering 
significant aerodynamic forces with which it could not cope.
    When traveling at over 12,500 miles per hour, it doesn't take a lot 
of damage to create significant heat and significant aerodynamic 
forces. Because the Shuttle maintained a nominal flight path and 
altitude until the very end, we believe the accident itself was sudden 
and catastrophic. Mr. Chairman, while the Board ultimately expects to 
speak with a high degree of confidence regarding the entire accident 
scenario, at present we are not entirely confident that we know for 
certain what physical event initiated the failure chain of events. We 
are all aware that the left wing was struck by External Tank insulating 
foam 81 seconds after launch, but to date, we are still looking for 
hard evidence that this foam strike caused any damage to the left wing. 
We are conducting tests now to help fill in this critical link in the 
chain of events.

III. Matters Beyond the Initiating Event
    Defining the point of the origin and timing of the failure sequence 
is extraordinarily important, but this by itself does not satisfy our 
requirement to find both the contributing and underlying causes of this 
accident. We also must determine why and how this failure process got 
started in the first place. We are looking in parallel at all related 
processes that pertain to the Shuttle system as a whole. These 
processes include, but are not limited to: safety, risk management 
policies and practices, quality assurance, maintenance practices, 
consistency in control of waivers and anomalies, turnaround processes, 
preparations to launch, work force issues, budgets, and the group 
dynamics of all Boards and committees that NASA has set up to ensure 
inter-disciplinary coordination.
    Mr. Chairman, the Board intends to draft a final report that places 
this accident in context. By ``in context'' I mean we will attempt to 
build a complete picture of how this accident fits into the complicated 
mosaic of budget trends, the myriad previous external reviews of NASA 
and the Shuttle Program, the implementation of Rogers Commission 
recommendations, changing Administrations and changing priorities, 
previous declarations of estimates of risk, work force trends, 
management issues and several other factors--each of which may 
contribute to a safer program to a greater or lesser degree.
    We on the Board are fully aware that when our work is finished, 
your work will be just beginning. We have set a high intellectual bar 
for the Board to clear. That bar is this: our report will be of 
sufficient depth and breadth that it will serve as the basis for a 
complete public policy debate on the future of the Space Shuttle 
Program. We believe we can both find the cause of this accident and 
relate it to these other issues.
    As we find items relevant to the return to flight decision, we have 
and will continue to release those results in the form of interim 
findings and recommendations, similar to the way the National 
Transportation Safety Board does in its aircraft accident 
investigations. These will both keep the Congress, the Administration, 
and the public informed of our progress and allow for interim work at 
NASA to proceed as quickly as possible.
    Mr. Chairman, speaking for the 13 dedicated experts on the Board 
and the thousands of people working to solve this mystery, I can assure 
you, the astronauts' families, and the American people that we will 
spare no effort to get to the bottom of this. I estimate that we are 
better than half done. We have all the assets and expertise we need, or 
we know where and how to get it.
    Thank you, Mr. Chairman. This concludes my prepared remarks and I 
look forward to your questions.

    The Chairman. Thank you. Thank you both.
    There are several issues that I would like to address, and 
we may have to have subsequent rounds. But the first issue I 
want to discuss with you concerns whether satellite photos 
could have been taken of the Columbia. And if so, would it have 
mattered in helping prevent this tragedy?
    Now, from my standpoint, here is what happened. I was 
notified shortly after the tragedy, in a highly classified 
fashion, that the National Imaging and Mapping Agency had 
offered to take satellite photos of the Columbia in order to 
ascertain whether, if any or the extent of, the damage was a 
result of the foam striking the capsule on launch.
    Now, I was originally briefed that the offer was rebuffed 
by NASA and that the offer had been made on several occasions. 
I consulted Senator Hollings, and we discussed it and sent a 
letter to Administrator O'Keefe asking for information 
concerning this situation.
    It is still not clear to me what happened, who is 
responsible, and whether a picture or imaging could have been 
rendered, if it had been given sufficient priority, which may 
have provided information that would have at least alerted NASA 
and the people on-board Columbia that there was a significant 
problem.
    So Admiral Gehman, you may not have reached any conclusion 
on that yet. But I would like to hear information from both you 
and Mr. O'Keefe, beginning with you, Administrator O'Keefe.
    Mr. O'Keefe. Yes, sir. Thank you, Mr. Chairman.
    I am certainly going to be a bit circumspect in the 
response, given how chary the intelligence community is about 
discussing the full extent of the quality of the imagery that 
is made available or the products that are available from the 
intelligence community. But as we have discussed----
    The Chairman. Could I just remind you, Senator Hollings and 
I communicated to you in a classified fashion. It was not until 
information was in the media that we felt free to discuss this 
issue.
    Mr. O'Keefe. Oh, yes, sir. No, no.
    The Chairman. Go ahead.
    Mr. O'Keefe. And in response to your joint letter, recall 
that, immediately, we responded on an unclassified basis, as 
well as classified information, to provide that information, as 
well. And then we have discussed this several times in closed 
session.
    Nonetheless, the procedure that was followed during the 
course of this operation, and prior, was the National Imagery 
and Mapping Agency had an agreement with NASA that, upon our 
request, they would provide products from the assets that they 
operate. That procedure required a level of import that had to 
be attached to it, whether it was routine, an emergency, 
urgent, you know, et cetera, that kind of--``How serious is 
your problem,'' essentially was the nature of the MOU.
    In this particular context, there was certainly the 
dialogue that goes on every day between NASA and NIMA on 
matters of availability of assets in which there were offers 
rendered in which they asked that there be some attachment of 
urgency to it. Based on all of the Mission Management Team's 
assessment in that 16-day mission, their judgement was there 
was no safety-of-flight consideration. So we have certainly 
asked the agency to make available those products to the extent 
that was available and easy to do on a normal, routine basis.
    Given the other priorities, which we are totally unaware of 
that NIMA has and has to respond to, their judgment about 
exactly how that is made available is their call. If we had 
said, ``We have an urgent matter. We need you to take, use, or 
employ your assets for the purposes of releasing those 
products,'' they would have done so. We had no basis upon which 
to determine an urgency. That was a judgment call. We now 
realize that, given the circumstances, that may have been of 
greater utility. But at the time, in order to meet that 
criteria, we would had to have put a matter of some urgency 
attached to it.
    As a consequence of this, and based on the findings and 
recommendations of the Columbia Accident Investigation Board, 
which was among the first two they have released, I have re-
enjoined with General Clapper at NIMA and have asked him 
specifically to, ``Let's disregard the MOU, let's rewrite it,'' 
and to simply make available imagery on every future 
operational mission as it comes available, period, without any 
qualification of its urgency or emergency requirements or 
anything else.
    The quality of that imagery, of course, always depends upon 
a range of factors, and, as a consequence, there is no 
comparability between each and every available product, as it 
were. So, as a consequence, we will get wide-ranging degrees of 
quality of what may be useful in the future. But, nonetheless, 
we will get it, and there will be no ambiguity about that 
procedure. That MOU is being, the memorandum of understanding 
the two agencies, is in the process of being redrafted with 
that specific understanding between the two agencies 
unambiguous.
    The Chairman. You have no idea as to whether that imagery 
would have revealed there was a problem.
    Mr. O'Keefe. Again, without describing what the extent of 
their quality is, let me simply say that the Tom Clancy novels 
would have us believe that the quality is extraordinary. They 
may not be as close to that reality as the novelists would have 
us believe. And, on that basis, it depends on a whole range of 
variables, and it is purely speculation on whether or not any 
of the products would have been of sufficient information to 
have given us any understanding. Indeed, I think Admiral 
Gehman's Board investigation process, while it has not yet 
determined what was the cause, the initial factor that caused 
this, it may well have been something that might not have been 
even determining based on any use of any product from any 
intelligence source.
    The Chairman. I appreciate the indulgence of my colleagues. 
My time has expired, but I would like to hear from Admiral 
Gehman on this rather important issue.
    Admiral Gehman. Thank you, Mr. Chairman.
    You happened to hit on a good first question, because, as 
you may know, the Board has issued a recommendation on this 
subject, and, therefore, this is something the Board has agreed 
upon.
    My evaluation when we write this section probably will be a 
little more critical than the Administrator's description. 
There are a number of issues here. We will attempt to pin this 
issue down in our report. But there were a number of 
bureaucratic and administrative missed signals here. There is 
no one person responsible; there are a whole lot of people 
responsible. The system did not work in this particular case. 
And I would not blame that on any one person.
    We have listened to a lot of people, and we have gotten 
quite a bit of testimony on who said what to whom, and we have 
tracked the issue, we diagrammed it out, and we are a little 
disappointed at how the process worked. That is why we issued 
this recommendation. We were a little disappointed in what some 
of the senior people knew and understood about how you get 
these images and what the images can do for you. They did not 
understand. Some people in decision-making processes did not 
fully understand what they were talking about here. Some cases, 
people made decisions based on an erroneous understanding of 
what was happening. There were missed signals going up, and 
there were missed signals going down, too. And we are not quite 
so happy with the process. We thought that there were some 
administrative and bureaucratic missed opportunities here. So 
we will be a little more critical of the process in our report.
    Now, whether or not it would have made any difference, we 
will not be able to speak to that. Since we do not know the 
mechanical, physical initiating event, the--we do believe that 
the orbiter entered the Earth's atmosphere with a pre-existing 
flaw. But that flaw could be as small as two inches by two 
inches, or it could be larger. So whether or not any 
photography could have detected that is pretty argumentative.
    But when we speak to the old-timers, some of the original 
flight engineers and flight directors and astronauts, they give 
us a slightly different view. They all say, ``None of that 
makes any difference. This is a test vehicle. Of course you 
want pictures just so you know, and all the rest of this stuff 
is bureaucratic fumbling and bumbling.''
    So I can answer part of your question. The Board has 
investigated this. As illustrated by our interim 
recommendation, we have satisfied ourselves that this process 
did not work, that it was no one person's failure, but we 
cannot determine, to any satisfaction, that it would have made 
any difference.
    I hope that answers your question, sir.
    The Chairman. Senator Hollings?
    Senator Hollings. Thank you, Mr. Chairman.
    Admiral Gehman, right from the get-go, what about the 
Chairman's observation that we need to have every statement, 
every bit of information that you folks on the commission of 
inquiry have made? Can we have all of those, or have 
confidentiality agreements been made to give cover for some of 
those statements that, in other words, cannot be made public or 
cannot be given to the Committee? What is your answer to the 
Chairman's request that we have all the information you have?
    Admiral Gehman. Thank you, Senator.
    As I indicated in my opening remarks, it is our belief that 
the Congress of the United States will get a better report from 
us----
    Senator Hollings. Well, I know we are going to get a better 
report. Let me ask, Have you given confidentiality agreements 
to anybody in this investigation whereby their statements will 
not be available to this Committee?
    Admiral Gehman. We have, Senator, but----
    Senator Hollings. Well, there you go.
    Admiral Gehman.--but that does not mean that their 
statements will not be available to this Committee. We have 
conducted witness interviews, in accordance with the safety 
procedures used by several branches of the executive branch, 
and there are processes by which this Committee can have access 
to those. And, as I indicated in my opening statement, those 
processes are now being negotiated by our staffs.
    Senator Hollings. Well, I am not clear yet. One minute you 
say you have given confidentiality agreements, and then you 
have got to argue with lawyers and so forth as to whether we 
get them. But anyway, that is by the pale.
    The real important question is, could anything have been 
done to save those astronauts? Now, we know from Appollo 13 
about the ingenuity of NASA engineers. And you have got an 
ingenious group, Admiral, you and I have discussed it, and they 
know how to work and go and implement.
    I disagree with the distinguished Administrator's 
observation that there was no urgency. The truth is, within 81 
seconds, we knew that insulation had caused damage. The truth 
is that two days thereafter, the engineers were calling up and 
asking for an investigation and pictures. Boeing, I guess it 
was, made the investigation on potential foam damage, but they 
did not report until day 12. Now, that there would go along 
with the Administrator's ``no urgency,'' but you had urgency on 
the other side. Namely, the Mapping Agency was calling up and 
saying, ``We can get pictures. We can get pictures.'' You had 
the engineers calling for imagery. You call it ``bureaucratic'' 
and ``missed signals.'' But, really, it was not until, like I 
said, day 12 that he found out, ``Wait a minute, we should have 
done something.''
    Could anything have been done? I have talked to an 
astronaut or two, and they think that, yeah, you could have 
gotten another Shuttle up; otherwise, you could have turned 
that around for re-entry so the cool side would be to where the 
damage had been inflicted. There are all kind of maneuvers that 
could have been made. But it just looks to me like somebody 
that saw that in charge just all of a sudden just crossed their 
fingers and said, ``Well, it has worked before, let us hope it 
works again,'' and just, ``Cool it, cool it. No, no, we do not 
want any pictures.'' In other words, they were refusing to get 
the pictures, not on account of urgency. The urgency was there.
    What is your comment, Admiral?
    Admiral Gehman. Senator, we, as a Board, early in this 
investigation, considered the question about, What, if 
anything, could have been done, or how close did the astronauts 
come to surviving this? And in the early part of this 
investigation, the Board decided that there were still too many 
emotions and too many egos and too many feet stuck in concrete 
to address that. Now, three months later in this investigation, 
we know more, some of the emotions are off the sleeves now a 
little bit, and we have just directed and just begun a formal 
inquiry into what could have been done. That inquiry is about 
ten days old. We think that the emotions are out of it. Some of 
the reluctance to discuss these things have--we have got a 
little separation of time now, so people can be cooler about 
this.
    That investigation is going on right now jointly with our 
Board and a bunch of real smart people from NASA. And it is 
headed in a direction--it is too early to say--we have not 
found any magic fix. Let me put it that way. But I will say 
that it is inconceivable that we would come up with the answer 
that we could do nothing. I mean, of course, we would do 
something. And we have determined that, for example, that--the 
estimate of how long the orbiter could just hang up there, for 
example, the harder we dig into that, the longer that day gets. 
It turns out that they could have stayed in orbit a couple more 
days, more than a couple more days. And it turns out that the 
more we dig into this, the longer that number gets, and it 
gives you more opportunities to do things. And even if we came 
up with a fix that only had a 10 percent chance of succeeding--
--
    Senator Hollings. We would have tried.
    Admiral Gehman.--of course, we would have done something. 
Absolutely. So, thus far, this review, which I have looked at 
myself, I have found it to be pretty aggressive and pretty well 
thought out, has not found any magic formula, but has found 
several steps that could have been done to mitigate this. We 
may find more. But this is tough work for people who are 
closely associated with the program, and they are doing a good 
job of it. So maybe I will be able to get back to you later on.
    But doing nothing is obviously not the right answer.
    Senator Hollings. Bless you.
    How about Mr. O'Keefe?
    Mr. O'Keefe. Thank you, Senator.
    I do not disagree with your assessment, Senator. It was a 
judgment call. It was clearly the wrong judgment. And as a 
consequence--I mean, what we know now, hindsight being the 
circumstance, there are a variety of signals that could have 
gone--or told us what we should have been observing and what we 
could have corrected. Nonetheless, the judgment by the Mission 
Management Team at the time was--they looked at the 16-day 
mission, they said, ``Every one of the things we have 
observed''--all the spirited debate that you refer to; you are 
exactly right, lots of dialogue back and forth--in the end, 
they made a determination and said, ``Do we think this is a 
more urgent circumstance than we have ever experienced 
before?'' And the answer, rightly or wrongly, was they felt, in 
their judgment, this was not outside the normal. That certainly 
proved to be an erroneous judgment.
    So, you know, looking back on this, there is no question. 
The clarity is there. At the time they went through it, the 
Mission Management Team certainly looked at that. I concur 
entirely with Admiral Gehman's assessment. But had there been a 
different determination, we would have spared nothing to find a 
way to return the orbiter and the crew safely to this planet. 
No question.
    Senator Hollings. But just one little observation. Of 
course, it does look like the judgment was made that it was 
urgent and it was perhaps a fatal injury to the Shuttle itself, 
and they determined to make sure that that was not proved by 
not taking pictures and those kind of things. Those are the 
things that worry us on the Committee.
    Mr. O'Keefe. Yes, sir.
    Senator Hollings. It looks like they knew it, and there was 
the urgency, and they knew about the urgency and everything 
else, but they tried to sort of cover up the urgency.
    Mr. O'Keefe. Well, if I could--yes, Senator. I entirely 
concur in Admiral Gehman's assessment of this. When you look at 
the memorandum of agreement between NASA and NIMA, there is 
nothing that really jumps out at you and says, ``Geez, this 
looks like it is going to be a really bureaucratic procedure.'' 
In practice, it proved to be absolutely impossible to implement 
correctly. It was the wrong way to go about doing it. We have 
corrected that. There is no ambiguity about this point.
    General Clapper and I have had some very specific, direct 
words on how to arrange this, and there is going to be no 
ambiguity on this point in the future. But there was nothing 
that would scream off that page of the memorandum of 
understanding that says, ``What we have here is an impractical 
or impossible situation.'' In practice, I agree entirely with 
the way Admiral Gehman described it. It is something that you 
have got folks who do not know or were not aware of the quality 
of what could be available, and then a procedure that 
ultimately turned on the determination of NASA about what other 
priorities the intelligence community may require, singularly 
unqualified to make that judgment call. And so, as a 
consequence, it ground itself down to the null set, and that is 
what we have fixed. There is no ambiguity about this procedure 
any longer.
    It is infuriating to see how that process played out, and I 
share your absolute frustration with the fact that that should 
not have occurred that way.
    The Chairman. And it is equally infuriating that no one is 
responsible. Those decisions were not made by machines. Someone 
is responsible.
    Mr. O'Keefe. Yes, sir.
    The Chairman. Senator Allen?
    Senator Allen. Thank you, Mr. Chairman.
    Let me switch from this line of questioning to the current 
operations. The Space Shuttle, while it is an old craft, it is 
still the most capable, it is reusable, it can carry loads, as 
well as, obviously, crew members, up to the Space Station. It 
is clearly a national asset that is currently grounded. My 
question is regarding the future of the Shuttle and the 
International Space Station. Specifically, what is our strategy 
that will be guiding the operation of the Space Station while 
the Space Shuttle is grounded?
    Mr. O'Keefe. Yes, sir, thank you.
    Our partnership with the International Space Station 
partners of 16 Nations has demonstrated the depth of that 
partnership by responding and stepping up when we need that 
capability most; in particular, our Russian partners, and the 
Rosaviakosmos, the Russian Space Agency, have responded in a 
remarkable way, not only by accelerating the logistics flights 
that are necessary to resupply the International Space Station, 
but also to honor their commitments previously made to launch 
the Soyuz spacecraft, which will now be used for crew-rotation 
purposes.
    I was in Russia weekend before last to, after several tense 
hours, welcome home the Expedition 6 crew, Ken Bowersox, Don 
Pettit, and Nikolai Budarin. And, just days before, Ed Lu and 
Yuri Malenchenko were launched on the Soyuz to man the Space 
Station as it is today on Expedition 7. So that rotational 
pattern will continue, and we will then maintain a capability 
there that, again, our International Space Station partnership 
has stepped up to the task of maintaining that capability 
independent of the Shuttle's operation.
    The catch is we cannot continue to build the International 
Space Station, complete it, until we return to flight safely. 
And so the imperative for moving ahead, finding the problem, 
fixing it, and responding by returning to safe flight is the 
imperative of building the International Space Station and 
conducting the activities that we had planned and worked 
through for so long.
    Senator Allen. Well, implicitly, if we are doing simple 
math, we are sending two crew members now, rather than three, 
which then gets to the question of its capabilities and can two 
do as many as three. And then, following that is what is the 
strategy of NASA insofar as the balance between the use of 
manned space flight versus robotic satellites?
    Mr. O'Keefe. Yes, sir. Well, the maintenance of Expedition 
7, as well as each crew hereafter that will be launched on 
Soyuz or recovered by the return of the attached Soyuz flight 
that is aboard now, is what is required to maintain continued 
safe operations of the International Space Station. It is a, 
you know, lights-on, fluids-running, you know, kind of 
maintenance capability, and some science. There is not a 
complete diminution of that. They are not just there as an 
engineering or maintenance crew, but they are--it does 
guarantee safety-of-flight operations and keeping it at the 
appropriate altitude in order to maintain safe operations.
    So the diminution of one is more a function of how many 
folks can you support with logistics flight, the progress 
flights that are sent now--five a year is what we are 
planning--in order to maintain the logistics, the consumables--
food, water, you know, repair spare parts, et cetera--and that 
is adequate in order to support two, not three. We could have 
maintained a longer or more extended presence of three crew 
members through early fall, but that would have drawn down the 
consumables faster, so we elected to make the change to two 
crew members earlier.
    In terms of what is the future of human space flight and 
the imperative thereof, certainly this tragedy reminds us of 
the extraordinary risk that is taken when humans are engaged in 
space exploration. And in doing so, it means we have to 
absolutely convince ourselves of the imperative of why humans 
need to be involved in certain mission activities.
    As it pertains to the operations aboard the International 
Space Station, I think in the opening comments from so many 
Members here of the Committee, particularly your statement that 
this be a science-driven research enterprise, indeed, that is 
its primary purpose. A lot of that can be done robotically. A 
lot of it can be done remotely. Some of it cannot. It requires 
human interaction and activity in order to divine the kind of 
science and research activities and experimentation that is 
necessary. The Hubble Space Telescope, classic example, again, 
of why human space flight is a very important element of the 
overall equation. Because when we launched the capability ten 
years ago, it was determined to be out of focus and was widely 
deemed to be a $1 billion piece of space junk. It has come back 
from the ashes as a consequence of that because of human 
interaction. Were it not for the capacity on the part of humans 
to make adjustments to that piece of machinery that could not 
be done remotely, it would have remained a billion-dollar piece 
of space trash. Today, it is rewriting the astronomy books, 
based on what we are learning from it, because of human 
interaction.
    So we have got to be very selective, very careful, on how 
we engage in human space flight and expose the risk only when 
you see the imperative is there for human interaction required. 
But, beyond that, I do not see a circumstance under which we 
would eliminate it entirely.
    Senator Allen. But you do see an increased value in it----
    Mr. O'Keefe. Yes, sir.
    Senator Allen.--as advancements go forward.
    Mr. O'Keefe. Absolutely. No question at all.
    Senator Allen. My time is concluded. Thank you both.
    Mr. O'Keefe. Thank you, Senator.
    The Chairman. Thank you.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman. Gentlemen, thank 
you.
    And beginning with you, if I might, Mr. O'Keefe, and 
explore something with you that really goes back to the days 
when I chaired the Subcommittee on Science, Technology, and 
Space, now chaired very well by our colleague, Senator 
Brownback. And my sense, Mr. Administrator, is that there is 
really an urgent need for a thorough overhaul of the way people 
within NASA communicate with each other. If you look, for 
example, at the kinds of things that we are talking about here, 
and Senator Hollings and Chairman McCain have gotten into it, 
what we see is it just does not seem that the people on the 
front lines, the engineers, seem to feel that they are getting 
through to people up at the top. And you hear that again and 
again and again.
    Now, I recognize that we are still in the preliminary kinds 
of stages in this area, but I would be interested in your 
sense, at this point, (a) whether you think that there really 
is a need for significant change at NASA with respect to how 
people communicate with each other, and (b) what you think some 
of the elements of--if you feel that way, what some of the 
significant elements of those changes ought to be.
    Mr. O'Keefe. Yes, sir. Well, thank you, Senator.
    I do not disagree that we have got to constantly work to 
open the communications to garner and divine everyone's best 
judgment, advice, and opinion on the engineering and technical 
challenges we experience on a regular basis. There are two 
things that apply on this one that I have come to--looking at 
the record and all the E-mail traffic and all the reviews of 
what has occurred here.
    The first one is that in this age of modern information 
technology, what we have created, again, as a consequence of 
it, is a very egalitarian process. When you look at the wiring 
diagrams of who was talking to who, who was E-mailing who, it 
was independent of where they fit on the overall hierarchical 
chain. There is nothing monolithic about how that approach was 
taken. Indeed, you have junior engineers communicating with 
very senior people in the organization on what they thought, 
and responding on that basis. So the Mission Management Team 
that conducted the in-flight-operations coordination effort 
encouraged and received an awful lot of commentary, from not 
just the folks within the space flight community, but outside 
of it, and solicited commentary from others. So that part is 
the good news.
    The problem is it is much like anything else, where you are 
encouraging volume. It becomes a cacophony. You cannot quite 
put it in context, and, therefore, judgment calls get made.
    And that is the second part that really is a pattern here 
that it concerns me a bit. We engage in an unbelievably rigid 
process leading up to launch. The flight-readiness reviews and 
so forth, everything prior to that is a very methodical effort 
that is a very hard lesson learned from Challenger in which 
everyone is encouraged to pipe up. There are all kinds of 
interaction. And then as soon as the operation begins, it 
becomes a group of folks in the Mission Management Team.
    You know, this derives from, I think, a very tried-and-true 
kind of military operational procedure in which you want to 
hear lots of commentary; but, in the end, somebody has got to 
have the operational control of how this works and make 
decisions about it. There is a little less of a rigidity to 
that process, for good reason, in order to maintain flexibility 
and to be adaptive to circumstances as they present themselves.
    But, nonetheless, this clearly--this indicates that yes, 
indeed, the premise of your question is right on. We need to 
really examine this carefully, not because there is not enough 
interaction, but its quality is confused. It is in volume, but 
not in any organized manner.
    And in terms of how the operational management of a mission 
is conducted, it does not lend itself as well, from what I can 
divine, towards any prioritization of those observations.
    So yes, indeed, sir, I am committed to that, looking at how 
we overhaul that function, and encouraging what is good about 
it and figuring out how to put some organization to it to make 
it meaningful.
    Senator Wyden. The other area I wanted to ask about, we 
have talked, obviously, about one of the recommendations, the 
preliminary recommendations, of the Columbia Accident 
Investigation Board with respect to the imaging issue, and I am 
pleased to see that you would have handled that issue 
differently. But what about the other recommendation calling 
for a comprehensive inspection plan to look at the structural 
integrity of the reinforced carbon-carbon system components?
    Mr. O'Keefe. Sure.
    Senator Wyden. Now, this, again, is a preliminary 
recommendation from the Accident Investigation Board, but 
certainly people have asked me, having been involved in these 
issues, why something like this was not done before the 
tragedy, and I am sure there are some technical questions in 
this area, but I would like to get your response for the record 
on that.
    Mr. O'Keefe. Yes, sir. Thank you, Senator.
    Indeed, this is an area that the finding and the 
recommendation of the Board--you know, I will defer to Admiral 
Gehman in terms of the approaches they looked at to come to 
this conclusion; but, nonetheless, their finding and 
recommendation was right on the mark. These are the kinds of 
things that we need to develop.
    The catch is, I am advised by our technical community, the 
engineering folks, that there is no specific nondestructive 
testing method that is available to do and accomplish what is 
necessary while the leading edge is in place. And so, as a 
consequence, we work with our friends and colleagues at the 
Langley Research Center to develop such a technique, because 
there has been a lot of work on it, and a lot of folks have 
been talking about it trying to figure out how to do this, but 
there is no known technique where you can just simply say, 
``Let's go get that approach,'' and go do it. Instead, what it 
requires, you take the leading edge off and then examine it 
through a variety of different techniques rather than in place. 
And in doing so, the engineers are of the view that that, in 
turn, creates, unintentionally, the prospect that you may 
further damage or compromise the seals at each of the points of 
the leading edge itself. So what we have got to find is a 
nondestructive testing method in place in order to do this.
    Now, having said that, during the course of every OMM 
process, which is the major maintenance process where you tear 
down the orbiter essentially every eight to ten flights, 
typically they will be removed and inspected through that 
process, or replaced, if need be. On Columbia, I believe, and I 
will defer to Admiral Gehman on the specifics of this, but some 
number of those leading-edge panels were replaced, but not all 
of them. Some of them were original material. And so the actual 
inspection of them may have been, and certainly was, inadequate 
during the course of that. But we are trying to develop a 
technique that would do just that.
    Senator Wyden. Mr. Chairman, if we could just get the 
Admiral's response on it, because I think the point Mr. O'Keefe 
was making is that to have really done the job as 
comprehensively as the Administrator would have liked, you 
needed to develop some new technology, and there were, I think 
I caught in the Administrator's comments, some flaws, even in 
terms of the inspection process that was used.
    If that is the case, Admiral, could you tell us your 
thoughts with respect to the flaws in the inspection process? 
Because I have not heard that on the record.
    Admiral Gehman. Yes, sir. Thank you, sir.
    Once again, I will differ slightly in my analysis from the 
Administrator's analysis. Of the 44 panels on the two wings of 
the Columbia, 44 RCC panels, only three had been replaced. The 
other 41 are original equipment. They are 25 years old. The 
question is, Does anyone know whether or not those carbon-
laminate pieces--which are not fiberglass, but think of 
fiberglass--which are subjected to weather and lots of other 
things, does anyone know the condition of those panels? And the 
Board was not satisfied that, like any other aircraft which is 
approaching its 20th or 25th year, an extensive amount of 
aircraft-aging analysis is done. The Board was not satisfied 
that a similar engineering kind of pattern was being followed 
by NASA.
    And, indeed, every once in a while some of these panels are 
returned to the manufacturer--for example, if there is a visual 
flaw--and the manufacturer does these introspective, 
nondestructive kinds of testing. And guess what? On occasion, 
we find flaws, serious flaws, which are not visible to the 
naked eye. That led us to believe that we have a condition 
here--or we have an unknown condition. The Board is not saying 
there is anything wrong with those RCC panels; the Board is 
saying that NASA does not know the condition of 25-year-old 
panels and that this is a big flaw.
    And we, of course, wanted to make sure we did not say 
anything that was factually incorrect or anything like that, so 
we consulted experts inside/outside NASA. And, oh, by the way, 
when we consulted experts at NASA, we got the same pushback 
that the Administrator got, ``Oh, by the way, the systems are 
not perfect. Yeah, we'll have to take them off in order to do 
this.'' But we found that to be not relevant to our discussion. 
You cannot fly an orbiter with 25-year-old pieces of equipment 
that you do not know the condition of them.
    Senator Wyden. Mr. Chairman, thank you.
    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    How many people would have been involved in the decision-
making, once it was recognized after the Shuttle launch that 
damage had been done?
    Mr. O'Keefe. I will have to get you a head count for the 
record, but the Mission Management Team is composed of folks 
from the Johnson Space Center, the Marshall Space Flight 
Center, Kennedy Space Center; and primarily at Johnson, because 
mission control is operated there out of Houston. It is a 
fairly large number, but let me get you a precise one for the 
record here.
    [The information referred to follows:]

    The Mission Management Team (MMT) is responsible for each Space 
Shuttle mission, from launch to landing. The team is composed of the 
following members:

    Manager, Launch Integration, (Chair, Launch MMT)*
    Manager, Space Shuttle Program Integration, (Chair, Flight MMT)*
    Manager, Space Shuttle SR&QA*
    Manager, Space Shuttle Systems Integration*
    Manager, Space Shuttle Vehicle Engineering*
    Manager, EVA Project*
    Director, Flight Crew Operations*
    Director, Mission Operations*
    Director, Space and Life Sciences*
    Manager, MSFC Shuttle Projects*
    Manager, RSRM Project
    Manager, SSME Project
    Manager, ET Project
    Manager, SRB Project
    Director of Shuttle Processing, KSC*
    Manager, ISS Program (as required)*
    Director of IS S/Payloads Processing, KSC
    Commander, DDMS *
    Flight Manager*
    Program Manager, Hamilton Sundstrand*
    Lockheed Martin Michoud Space Systems
    Thiokol Corporation
    Boeing-Rocketdyne
    Boeing Company Payload Ground Operations Contact
    SSP, Deputy Program Manager, SFOC*
    The titles with asterisks represent those members who are required 
to be present during each mission.

    Mr. O'Keefe. But, in terms of active members of that team, 
there may be that many or more folks who are actually being 
tasked or required to participate or whatever else. But in 
terms of decision-makers, you have got a very specified number 
of folks there.
    Senator Snowe. And how far up the chain of command does a 
safety-related question go on the day of the mission?
    Mr. O'Keefe. The mission management team is run primarily 
by the Shuttle program, which reports primarily to the Office 
of Space Flight in Washington, as well as to the center 
director at Houston. A safety issue would escalate all the way 
through that process quickly if the mission management team 
were of a mind that we had a safety-of-flight consideration.
    Senator Snowe. They did not, obviously, identify this as a 
serious safety-related issue.
    Mr. O'Keefe. They did not determine that, based on all the 
evidence, that there was a safety-of-flight consideration 
during the 16-day mission. That was a judgment call made by the 
mission management team, indeed.
    Senator Snowe. Yes, it just seems to me that there is no 
question that the whole decision-making process and 
communication and the bureaucratic structure that goes up 
through the chain of command has to be altered significantly.
    Admiral Gehman, you had mentioned that no one is 
responsible. Well, that is the problem. When you have a 
committee of 100 or less, if everybody is responsible, no one 
is responsible. It is true. It has to change, I think, before 
any next launch, among other things, because we have to get to 
the root causes. It just appears to me that it was a very 
complicated decision-making environment when it came to making 
those kind of decisions, and red flags were not readily 
identified.
    You could not access previous records or abnormalities that 
were associated with the Columbia Shuttle, and that is also of 
concern. You cannot have an antiquated system. If there were 
problems that had been identified with the Columbia Shuttle on 
previous flights, there was no way to access that previous 
experience readily or quickly in ascertaining whether or not 
this was a serious problem.
    So if there was a growing list of abnormalities, there were 
no red flags being raised, because you could not access the 
lists; and you have a very cumbersome bureaucratic environment 
that does not raise a red flag with respect to this.
    It is disconcerting, because--and I do not know if this is 
true; I read this in one of the newspaper accounts, talking 
about a memo that named over 30 high-risk concerns regarding 
tanks and foam and identified the idea of foam shedding from 
the tank and causing damage to the thermal-protection system of 
the tiles and panels. But over time, the space agency had come 
to classify the problem as a maintenance issue and not a 
serious threat to the safety of the craft or its crew.
    But even though it might have been considered a maintenance 
issue, the fact that it is on a list of 30 high-risk concerns 
should have raised a red flag.
    Mr. O'Keefe. Senator, if I might, I want to disagree just a 
bit with the assertion that there were not--there was not 
enough dialogue or exchange or whatever else during the course 
of this. There was plenty of that. And ultimately, there is 
accountability. There are people that can be identified very 
clearly as to who makes decisions about this during the mission 
management activity during on-orbit operations. And they are 
very clearly specified in terms of how they make those choices. 
The audit trail was pretty clear on this.
    Having said that, it is a judgment call. And what they came 
to was--and that is the hard part of this; this is a much 
tougher conundrum about this than any other aspect--it is not 
that the information was not available; it was analyzed and 
deemed to be within the context of safety-of-flight 
considerations. That was a judgment call. And you are right, 
there were several different high-risk items that were 
identified, and those were all identified as things that need 
to be treated; but during the course of operations every 
previous flight--and yes, indeed, that information was 
available that demonstrated and was reviewed during the course-
of-flight-readiness reviews and so forth--but determined to be 
not a safety-of-flight risk consideration. Needed to be fixed, 
but not something that would compromise the mission.
    You know, last June we shut down the operations of the 
Space Shuttle program for the better part of 4\1/2\ months 
after identification of a hairline fracture in a fuel line. 
Now, that was determined to be a safety-of-flight consideration 
on those kinds of high-risk issues; therefore, stop everything 
until we fix that. And that is the difference. In some cases--
there are all kinds of different abnormalities that you will 
find on every commercial aircraft, on any military aircraft, no 
matter what it is, that are requiring of corrections, but not 
determined to be safety-of-flight. That was a judgment call; 
and we will find out, in this investigation, whether that was 
an accurate judgment call. And certainly there appears to be 
plenty of doubt on that.
    Senator Snowe. If the photos had been able to show damage 
to the carbon-carbon leading edge that Senator Wyden was 
referring to, would anything have changed?
    Mr. O'Keefe. Absolutely. No question. If there had been 
something, any evidence at all, to suggest that there was a 
safety-of-flight consideration, it would have gone to, you 
know, five-alarm-fire status where everybody would have been 
absolutely beaten to parade rest every possible idea of how to 
correct the problem. There would be nothing left.
    Admiral Gehman. Senator, may I comment?
    Senator Snowe. Yes.
    Admiral Gehman. The Board is probably going to spend a good 
fraction of the time or the, you know, the linear inches of our 
report on this subject, and we have looked really hard at the 
question that you asked, Why do we have all this dialogue going 
on, but no transmission of any messages? And there is all this 
talking, but nothing is being transmitted.
    And the Board is taking an interesting approach to this, 
and that is--the approach is that if you look at the O-rings on 
the Challenger and you kind of backtrack on how that decision 
failed to get made, and if you take the foam and the 
photographs in the Columbia and you backtrack and you say, 
``Oh, look, they missed something,'' we find that to be kind of 
unfair, because hindsight is wonderful. So the Board has said, 
``Let's look through all the waivers and all the anomalies and 
all the steps that NASA has waived on all the flights and see 
if there are other items like this in which we continuously 
have these waivers and the acceptance of anomalies, and are 
there other things like this going on? And is it symptomatic of 
some process which is not working very well?'' Because to pick 
these two incidents and work backwards does not take a whole 
lot of introspection; that is pretty obvious.
    So the Board is interested, Are there others out there? And 
if there are others out there, how did they come to be 
accepted? How come we are still flying?
    We have found others. And what we are doing is, we are 
trying to find out whether or not there is a process flaw which 
is not allowing safety items and engineering items to get up to 
the level that they should. We find that to be more 
intellectually honest than to go back and thrash people for 
what they should have seen on this one, and we have found what 
we believe to be some good analysis and good data which will 
help this process in the future, not just beat up on people for 
the past.
    Senator Snowe. Yes, I could not agree more. And I think 
looking prospectively and addressing the root causes is 
important so that it does not happen again--I agree.
    Thank you.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman. America and the world was shocked and 
deeply saddened by the loss of Columbia in the skies over Texas on the 
morning of February 1. My thoughts and prayers continue to be with the 
families of the seven brave astronauts who lost their lives that day.
    It is my hope that this hearing today will honor the memory and the 
service of the Columbia crew by aggressively investigating the events 
leading up to that tragedy to improve the safety of all future 
missions.
    Clearly, many questions remain unanswered for all of us, and I hope 
that the Columbia Accident Investigation Board will continue to pursue 
all avenues to find answers. As we go through this process, we have an 
obligation to determine not only the circumstances of the actual event 
that caused the Shuttle Columbia to break up, but also the root causes 
behind that tragic loss. In doing so, we must look at our space program 
in its totality to identify any systemic breakdowns--from management 
structure to funding requests to potentially outdated equipment to 
pressures on the system resulting from the International Space Station 
program or plans to create a new orbiter, so we may remedy these 
problems to ensure we don't relive this tragedy.
    At our Joint Hearing on February 12, I asked why military telescope 
imaging had not been requested in order to assess the damage that the 
Columbia Shuttle might have suffered from the foam debris that hit the 
Shuttle soon after liftoff. At that time, I was told that NASA had 
decided this imaging would not have been useful or necessary, even 
though similar imagery had been requested on previous missions. 
Furthermore, relying on computer models and past experience was 
described as the best way to assess the potential damage.
    Since that time, we have learned that there actually was 
considerable division within the ranks of NASA regarding how important 
the debris hit might have been to the Shuttle's integrity. We have 
heard reports that at least two requests were placed for images, but 
that these were unofficial and not considered a high priority. It has 
been reported that at least one of those requests was cancelled because 
it did not come through the proper channels. So I come to this hearing 
very concerned about NASA's decision-making environment, and believing 
that the process has to be significantly altered.
    At our February hearing, the actual cause of the Columbia accident 
was unclear. Now, through the tireless efforts of the Accident 
Investigation Board, we have a high degree of confidence that the 
Shuttle entered the earth's atmosphere on February 1st with pre-
existing damage to its left wing--that this damage allowed the hot 
gases of re-entry to enter the Shuttle and destroy it. Although the 
Board cannot guarantee that the foam debris that hit the Shuttle during 
lift-off directly caused the fatal damage to the wing, it seems likely 
there was a connection. While I am sorry that these tests are being 
performed after the Columbia loss rather than before, I look forward to 
hearing the results of the tests currently underway to investigate the 
extent of damage that foam debris hits can cause.
    While the Board has learned a great deal in the past few months, at 
this point, we still don't have a detailed picture of all the factors 
that contributed to the loss of Columbia. So we cannot ignore any 
potential culprits--we cannot take any issue off the table that might 
have contributed to the accident. It is crucial that we obtain a 
complete picture of all of these factors and maintain our patient 
resolve regardless of the broad changes these findings might require 
before resuming Shuttle flights.
    We must scrutinize what was done and what was left undone . . . 
decisions that were made during the two weeks of the Shuttle mission 
that we now question . . . and whether, more broadly, the competition 
between short-term and long-term goals has required trade-offs for 
years--trade-offs which contributed to this catastrophic event. We must 
inspect the tension between these priorities to help us determine the 
extent to which the Columbia disaster holds implications for our future 
goals.
    As I have said in the past, space travel will always be an 
inherently risky endeavor. But we should never stop asking ourselves 
how we might best reduce the risk. Our intent to move forward with the 
exploration of space must also be accompanied by an unwavering, 
unrelenting, unceasing commitment to safety--and today I hope will mark 
an important step in that journey.
    Again, thank you Mr. Chairman. I look forward to hearing of the 
most recent progress of the Columbia Accident Investigation Board.

    The Chairman. Senator Breaux?
    Senator Breaux. Thank you, Mr. Chairman, and thank the 
witnesses.
    I have two points. First is, it seems that a great deal of 
the investigation leads to the conclusion, I guess, that damage 
to the leading edge of the left wing caused part of the 
problem. The question then becomes, what caused the damage to 
the leading edge of the left wing? And the speculation has been 
that the foam coming off at the time of the launch hit the 
leading edge and caused some deterioration to the panels. And I 
know that you all have been testing that theory by some type of 
a mechanism that threw or shot the foam towards the leading 
edge to see if it could possibly do that type of damage. What 
can you tell us about the results of that test so far?
    Admiral Gehman. Yes, sir.
    The testing started last week. We are, indeed, shooting 
pieces of foam at test articles that are orders of magnitude 
larger than ever been done before. This testing has been going 
on for years and years and years. But the shots have always 
been tiny little pieces of foam at tiles and all that kind of 
stuff. And, of course, that then leads to this erroneous 
analysis of how much damaged the tiles, but that is another 
story.
    We started by shooting foam at--once again, this was the 
first time that foam of the size that came off this time has 
ever been used as a test. We started shooting at the wheel well 
doors, because, as you may recall, six or eight weeks ago we 
suspected that the heat was getting in through the wheel well 
door. The recovery of the onboard recorder changed all that. We 
are now building a leading-edge test target. That will not be 
ready until the first of June. The first couple of shots that 
were conducted by Southwest Research Institute were very, very 
mild, angle-of-impact kinds of shots. Little or no damage was 
done. The angle of impact underneath here was much shallower 
than was actually experienced in real life. As we start to 
crank the angle of impact around, the damage gets much more 
severe, and that is the testing that is going on now. We are 
just now getting----
    Senator Breaux. That is damage on the bottom?
    Admiral Gehman. To the tiles. To the tiles.
    Senator Breaux. To the tiles. On the body, not the leading 
edge?
    Admiral Gehman. That is correct. We have not started 
shooting at the leading edge yet. We will start shooting at the 
leading edge, to get to your question directly, around the 1st 
of June.
    Senator Breaux. But the results of the tests on the tiles 
on the undersurface of the Shuttle indicated much more damage 
than had been experienced before in the test?
    Admiral Gehman. The damage is dependent on the angle of 
impact. And as we get up into angles of impact which are 
representative of what we think really occurs to the Shuttle, 
the damage is more severe than previously thought. That is 
correct. It is dependent on the angle of impact.
    Senator Breaux. Mr. O'Keefe, how many times in previous 
launches has foam insulation separated from the fuel tank and 
broken off in launch or at other parts of a mission?
    Mr. O'Keefe. There were four observable events that were 
recorded and analyzed as a consequence--going back to, I think, 
STS-7, I think, was the first one. There were several other 
events of smaller pieces, apparently, that were documented, as 
well. But the ones that were significantly analyzed were these 
four different events, the most recent of which was on STS-112, 
which was launched in October.
    Senator Breaux. Are there any reports anywhere in NASA that 
raised a serious concern, a red flag, alert, that this was a 
problem or could be a more severe problem?
    Mr. O'Keefe. I think for the reasons Admiral Gehman just 
described, there were tests that were conducted thereafter that 
led engineers to conclude that the impact was not--on those 
four significant events, was not considered a safety-of-flight 
compromise.
    Admiral Gehman. Senator, may I----
    Senator Breaux. Yeah, any comment on----
    Admiral Gehman.--I will respectfully disagree with the 
Administrator, here. Foam coming off the external tank has hit 
every flight on every orbiter. If you want to measure total 
number of hits, it is thousands. If you want to measure hits 
that have caused damage to the tiles of greater than an inch, 
it is about 30 per flight.
    What the Administrator was referring to is this particular 
piece of foam that we are talking about in this instance, which 
is a special piece of foam molding that is hand-molded to cover 
a certain connection point called the ``bipod.'' That 
particular piece of foam is known to have come off six total 
times, including this flight, but there are over 40 flights for 
which we have no information--for example, the ones launched at 
night or ones where we could not photograph the external tank 
when it comes away. So there are six that we know of, out of 
40, minus 113, minus--out of 70-some flights.
    And so, just to make the record straight, this particular 
big piece of foam, the Administrator is right, only half a 
dozen times; but foam hitting the orbiter occurs on every 
single flight.
    Senator Breaux. Well, I mean, I think that is a significant 
piece of information for everyone to understand. I cannot draw 
any conclusions in my own mind, but it seems to me that that 
might be the smoking gun. And the fact is that this is not the 
first time it happened, but that insulating foam was coming off 
on every flight, and that, on thousands of hits, damage to the 
tile had occurred. It just seems to me that it was only a 
question of time when one of those hits did the damage that 
ultimately was done to the Columbia.
    Thank you.
    Mr. O'Keefe. Senator, if I could. Again, I do not disagree 
with Admiral Gehman at all. I apologize for having understated 
this at all, because it is a very significant event. There is 
no doubt about it. I was referring very specifically to the 
bipod section, and Admiral Gehman is precisely right, this is 
how it has happened in each and every case. And I do not want 
to understate this.
    The question that is really being debated internally in 
NASA right now is, Why did we permit a process that would 
tolerate any strike? That is the really important factor, I 
think, and we are really going through a soul search now 
saying, What is it that contented ourselves to believing that 
any strike should have been tolerated? And that is a much 
deeper-process issue that really is being examined, and there 
is a lot of real soul search going on that says, we rationalize 
based on historical evidence of what we thought was acceptable 
damage. Why would we think any level of damage would be deemed 
acceptable?
    Senator Breaux. Well, I mean, you have just put your finger 
on the real question. You know, if it had been one hit at one 
time----
    Mr. O'Keefe. Uh-huh.
    Senator Breaux.--I think someone would be justified in 
saying, ``Well, you know, it happened once out of thousands of 
flights.'' But it happened thousands of times, and this was 
probably the last time.
    Mr. O'Keefe. Yes, sir.
    Senator Breaux. Thank you.
    The Chairman. Senator Brownback?

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thanks. Thank you very much, witnesses, 
I appreciate the information you are putting forward.
    Admiral Gehman, has the commission come up with any ideas 
on changing the decision-making process to see that a mistake 
that had been made in judgment this time around--Mr. O'Keefe 
has already said that we clearly should have gotten imaging and 
there was a mistake in judgment made--has the commission come 
up with any recommendations to change the decision-making 
process yet that they are willing to put forward?
    Admiral Gehman. Senator, we have not come to any 
conclusions yet, but I will predict that probably a third of 
our report is going to be on this subject, because we believe 
that is really the lasting and the significant legacy that we 
can leave here.
    Yes, indeed, we think this is a systemic problem, that if 
you just change the people or change the names of the 
committees, it will not do any good, that there actually is a 
process problem here. And we have opinions on how to go about 
this. We have availed ourselves of literally dozens of experts 
in the area of safety engineering, risk assessment, risk 
management, high-reliability organizations, in order that we 
can write authoritatively on this subject.
    I will add, also, parenthetically, that you--in our 
opinion, neither the Congress nor this Board could get at these 
very, very deep-rooted institutional problems unless we availed 
ourselves of the investigating technique that is associated 
with a safety investigation, in which people can speak without 
being in fear of retribution.
    Senator Brownback. Well, who was responsible for the 
mistake in judgment this time around, particularly on the 
imagery? You said, I think, clearly, ``Well, okay, there was a 
mistake in judgment made. We should have gotten imagery.'' Who 
made that determination? Who was responsible for that decision?
    Admiral Gehman. I would not characterize that decision as a 
mistake by any one individual. When you have got an 
organization which is run by boards and committees, and those 
boards and committees do not work, I am not sure you can blame 
an individual person. So I will have to duck that question. I 
can tell you which Board or committee did not work as designed, 
and I can tell you why----
    Senator Brownback. Well, which one did not?
    Admiral Gehman. In my opinion, because the Board has not 
spoken on this yet, in my opinion both the boards that assess 
the condition of the orbiter before it is launched, which are 
boards and committees set up by the program manager, and the 
boards and committees that run the mission after it is flying, 
are ill-served by an imperfect system of checks and balances. 
And by that I mean specifically the safety organization sits 
right beside the person making the decision; but behind the 
safety organization, there is nothing back there. There is no 
people, money, engineering, expertise, analysis. The engineers 
sit right to the other side of them. But the engineering 
department is not independently funded. The engineers all have 
to charge to a program or something like that, so their 
allegiance is to the program. And we find that to be an 
imperfect system, and the boards are ill-served, and you are 
going to get the same wrong answer no matter how many times you 
convene those Boards. And it does not make any difference who 
the chairman is.
    Senator Brownback. Well, now, this is a very troubling 
point that you make, that you are going to get the same----
    Admiral Gehman. Wrong answer.
    Senator Brownback.--wrong answers? Why are we going to get 
the same wrong answers? These are good people. They are all 
well-meaning people. Why are we going to get the same wrong 
answers?
    Admiral Gehman. Once again, I am kind of a little bit out 
in front of my headlights here, because the Board has not 
completely spoken on this. But giving my own personal view of 
it, we have availed ourselves of a very, very rich and deep 
academic world, who studies these kinds of things, as well as 
industry, like nuclear power plants and petrochemical plants 
and things like that about, How do they do safety, and how do 
they build in checks and balances so that the people who are 
making decisions are getting good, contrary opinions? And to us 
it seems that this is the flaw in the system, that unless you 
change the management techniques and unless you change the 
procedures, you can change the people sitting at the seats and 
they will still not give good advice.
    Senator Brownback. Well, what you are describing to me is a 
committee without a head or a process without a design----
    Admiral Gehman. No, I----
    Senator Brownback.--that just communicates a lot back and 
forth, that there is not a responsible point at which a person 
is responsible for the decision-making?
    Admiral Gehman. No, sir, I would not agree with that. There 
is a Chairman, and there is someone responsible, and everybody 
knows who that is, but the process is not serving that person 
very well.
    Senator Brownback. How is the process not serving that 
person? Specifically how is the process not serving that person 
well?
    Admiral Gehman. Because the key advisors, the people who 
would bring up alternative points of view, the people who would 
say, ``Wait a minute, this is not safe,'' or--they are in the 
room, but they are not supported by--they can't come and argue 
their cases with 18-inches worth of documentation, because they 
are not funded well enough. They are not independently funded. 
There are not enough people in there to do that independent 
research in order that they can come to the table and make a 
persuasive argument. They are kind of there by themselves.
    Senator Brownback. They are there without backing, I guess?
    Admiral Gehman. They are there without backing. And when 
you get into these very technical issues about whether this is 
safe or whether or not this signal is important or whether or 
not this little anomaly needs to be paid attention to, you have 
to come with data. These are engineers. You have to come with 
facts and data and studies. You cannot just get in there and 
wave your arms and beat your breast. You have got to come armed 
with ammunition.
    And so the safety--we find the safety organization is, on 
paper, perfect. But when you bore down a little bit deeper, you 
do not find any ``there'' there. And the engineering department 
looks precisely organized exactly right, but then when you go 
bore down and find out what these 600 engineers are doing, you 
find that three quarters of them are funded by the program, and 
so you know where their allegiance is, et cetera.
    So we are going to try and make some recommendations to 
improve the process of safety, but do not mislead, do not--that 
is why I am giving you this unsatisfactory answer, and I know 
the Chairman is still looking at me--but that is why we are 
trying to find a way to fix this and fix it right. But it is 
not necessarily any individual one person's responsibility.
    Senator Brownback. So you need internal muscle that is 
separate and distinct from the program that can effectively 
argue within the structure--for the change that we need to be 
addressing. Is that correct?
    Admiral Gehman. That is correct. And now the Board is 
loathe to make specific organizational and management 
recommendations for the fear of the law of unintended 
consequences. We are not going to be around to manage these 
things and steer them. But I believe that when we write our 
report, we are going to give quite direct and specific 
guidelines on how this process ought to operate.
    Senator Brownback. Thank you, Mr. Chairman.
    Mr. O'Keefe. Mr. Chairman, may I comment very briefly?
    The Chairman. Sure.
    Mr. O'Keefe. In this----
    The Chairman. Could I comment first? When I was a young 
lad, the U.S.S. MISSOURI ran aground not too far from here. The 
captain was asleep in the cabin, and the navigator ran it 
aground. The captain was relieved immediately. But now, since 
there seems to be an interesting situation, no one is 
responsible. No one is responsible because we are all 
responsible; so, therefore, no one is responsible. No one is 
responsible for 9/11. No one is responsible for Khobar Towers. 
No one is responsible for a whole bunch of other things, bad 
things, that have happened. We are all responsible; so, 
therefore, no one is responsible.
    Go ahead.
    Mr. O'Keefe. Thank you, sir. No, thank you, Mr. Chairman. 
That is a perfect prelude to my respectful disagreement with my 
friend, the Chairman of the Columbia Accident Investigation 
Board. There is no ambiguity on who is responsible. There are 
two folks who sit at the flight readiness review. The Associate 
Administrator for space flight and the Associate Administrator 
for safety and mission assurance. They sign the order that 
says, ``We certify this is ready for flight.'' The argument 
that is being advanced here is that the quality of advice they 
are receiving, in the opinion, I think, of the Chairman of the 
Columbia Accident Investigation Board, needs further support. 
That is a point that we have positively got to look at. But in 
terms of who is responsible, there is no question about it who 
signs the certification on this case. There are identified, 
named individuals who are part of this mission management team.
    Senator Snowe asked the question, ``How many people 
participate in that?'' Lots of engineers and so forth. You bet. 
Lots of folks participate there. But there are specified folks, 
with name, faces, serial numbers, and, you know, pay checks 
that are provided that are chair of the mission management team 
and members of it that make determinations and are responsible 
for that.
    There will be accountability here. There is no question 
about it. This will not be ambiguous about who is responsible 
at the end of the day. We are awaiting the report. There are 
certain changes that have to be made. But, in the end, there is 
no line or argument of a mush-mouth system here of how these 
decisions are arrived at. There are individuals who you can 
identify and say, ``That is the responsible official.'' And I 
think the point that has been made here is, the quality of the 
advice that is being rendered to them may not be as organized 
as it should be.
    My attendance at flight-readiness reviews in prior flights, 
to include, you know, most recently, I guess, 113, was--you 
look in this room, and everybody and anybody who has an opinion 
on the quality of the readiness of the orbiter to fly are in 
that room. It is a big confab. And anybody has got the 
opportunity to step up and speak. And many of them are the 
functional equivalent in the space flight community of E.F. 
Hutton; whenever they stand up, immediately everybody 
recognizes them and they stop everything until the issue is 
resolved. In the end, that judgment has to be rendered by two 
people, and that is very clear in the way this process works.
    Same is true during an operational mission management team. 
And the issue, I think, that Admiral Gehman is raising is, What 
is the quality of that advice, how is it organized, and how do 
we make it more relevant for them to make the kinds of 
decisions they are asked to make?
    Senator Brownback. Mr. Chairman, could I respond to this, 
because I want to bore in on this point, and it does seem to be 
a very important one. What I hear the Admiral saying is, that 
there is not a muscle, an independent muscle, behind that is 
challenging this process internally, that the people, the 
engineers and the others that are commenting are part of one a 
systemic system all funded from one system, and it needs an 
independent muscle that is there in the room that can speak 
from engineering data and specifics. They can challenge the 
decision-making process. Is that correct, Admiral?
    Admiral Gehman. That is correct. And, by the way----
    Senator Brownback. If I could, then----
    Admiral Gehman. Yes, that is correct.
    Senator Brownback.--if I could.
    Administrator O'Keefe, I am not here trying to point 
fingers, but I am trying to figure out how we keep this from 
happening again. We do not want anybody to die. You do not want 
anybody to.
    Mr. O'Keefe. Sure.
    Senator Brownback. Do you agree with that assessment, that 
there is not the independent muscle behind the challenge 
process internally in making these safety and engineering 
decisions?
    Mr. O'Keefe. Again, I am guided by the view of the Board. 
If their view is that it is inadequate, that is the answer, it 
is inadequate, and we will go fix that.
    Senator Brownback. Thank you.
    The Chairman. Admiral Gehman, did you want to make an 
additional comment?
    Admiral Gehman. Thank you very much.
    As I indicated, we, on the Board, have grounded ourselves, 
we think, in aerodynamics and thermodynamics and physics to the 
point where when we write on what caused this accident, it is 
unlikely that we are going to get challenged on any of our 
findings. In order for us to write on this subject, we have had 
to ground ourselves in what we, in the United States, know 
about these very complex management techniques. And so we have 
done that, to a great extent.
    And two of the principles that have struck me get to the 
point where, indeed, the person who is the Chairman of this 
Board or the Chairman of this Committee or the two people who 
have to sign the paper, they are identified by name. We know 
who they are, and you know who they are. But so many of these 
experts in this area have told us that just picking on those 
two people and firing them or something like that will not 
prevent this from happening again. If you have got a flawed 
process, the next chairman is going to make the same mistake, 
probably. So we are quite driven by that.
    The second thing that we are quite driven by is writing out 
of a report that I would like to acknowledge other people here, 
but the writing goes along the lines of this. This way. That 
the wonderful engineers who give us all these magical things 
also make a pact with the devil--I am thinking of things like 
nuclear power plants and petrochemical plants and dams and 
things like that--that you get all the--and Space Shuttles--you 
get all these magical things from engineers, but the pact that 
you make with the devil is you have to be vigilant forever, 
because now you have got this dragon by the tail. And it could 
be that in the 25 years or 20 years of this program, as the 
conditions of Shuttle life change, the Board is looking at 
whether or not this vigilant-forever law has been observed, or 
somehow have we migrated away from that? And the Board is going 
to try to write on that.
    Senator Brownback. Very good.
    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Senator Brownback, I want to pick up on your line of 
questioning. But first I want to say, Admiral, thank you for 
your public service. Thank you for the public service that you 
rendered, even after your retirement, with regard to the U.S.S. 
COLE investigation. Thank you for your public service for this. 
And it is this Senator's hope that you are going to succeed, 
and that is what we want to see, that you succeed.
    In the line of questioning from Senator Brownback and in 
your response earlier with regard to the safety process that 
had been set up 17 years ago, and your quote was, ``There is no 
`there' there.'' Now, that makes my blood boil. Because of the 
communication problems 17 years ago with Challenger, which it, 
in large part, was--that was the reason for the destruction of 
Challenger, that information could not flow from the bottom up; 
it was much easier flowing from the top down. And so this 
process of safety was imposed, and the safety process was 
supposed to be an automatic failsafe. But you say ``there is no 
`there' there.''
    Why do you think we have not learned the lessons from 
Challenger, as painful as that was?
    Admiral Gehman. Senator Nelson, thank you very much for the 
vote of confidence. We will see whether or not that is well 
founded or not. But the Board is going to spend an enormous 
amount of energy to answer that very question.
    It is possible--it is possible--that we have the system 
that we have right now because of Challenger. There were 
recommendations to consolidate, have a more formal chain of 
command, have a more strict and monolithic program, that were 
part of the Challenger recommendations, and, once again, I do 
not want to get ahead of myself, but we are going to look at 
this in great detail.
    We have also looked at best-business practices from other 
very, very risky communities and have found how they do high-
reliability kinds of things, and the Board will attempt to 
write an outline that will ensure that these kinds of safety 
issues do, indeed, get raised at the right level and then the 
people who have to make the judgments are advised well and 
these issues are not submerged.
    I do not want to get into anymore detail than to say that, 
at this time, the preliminary--at this stage in our report, I 
am willing to volunteer that we are not completely satisfied 
that underneath the box that says ``safety'' and ``S and MA'' 
that there is a big, robust organization which allows the 
person in the box to come to the table with the same number of 
chips as everybody else. And under the box that says 
``engineering directorate,'' that there is not enough 
independent good old engineering kind of thinking that NASA 
used to be known for to come to the table and bang on the table 
and say, ``You are wrong, and I can prove it.''
    That is about as far as I am willing to go at this time.
    Senator Nelson. All right. Let me nail down something that 
the Chairman and Senator Hollings said earlier, asked you 
about, with regard to our congressional oversight.
    Admiral Gehman. Sure.
    Senator Nelson. I need to know, specifically for the 
record, since you are trying to protect the identity of the 
witnesses, since you want to encourage people to come forth and 
tell the truth without having to subpoena them for the truth, 
understandably, you want to protect their identity. What we 
need to know, is that testimony, that full testimony, available 
to this Committee in our congressional oversight capacity?
    Admiral Gehman. The answer, the short answer, is we are in 
the process of working out an arrangement by which you will 
have access by some process to all that information. The 
answer, the short answer, is yes.
    If I may just say that the purpose of giving witnesses 
guarantees of anonymity is not so they will tell the truth. 
That is not the issue. They will tell the truth when they come 
up here and raise their hand. The purpose is to find out things 
that they would not volunteer under questioning. That adds a 
whole different range of information, a whole different body of 
insights in which they may say something that they are not 
fully sure of, for example. They just--or it is a feeling that 
they have or something they cannot prove or something like that 
which they would not give to anybody who was doing this in a 
public forum.
    Senator Nelson. Well, there was some question in Senator 
Hollings' mind. I am glad that you have clarified that, that 
the answer to the question is yes.
    All right, let me comment. I happen to agree with your 
statement about the old-timers, that the old-timers basically, 
if they knew there was the potential of a problem, they would 
have started working it. They would have done photos 
immediately. They would have started pulling out of their hip 
pocket every possible theory of changing anything that could be 
changed, as well as what Senator Hollings had said, ``cold 
soaking,'' no roll reversal to the left, maybe a different 
angle of attack.
    What do you think? Why did NASA and its leaders tolerate--I 
guess the question is, What is your report going to tell about 
reenacting this of how you would do it pursuant to the old-
timers?
    Admiral Gehman. The old-timers certainly taught me 
something, which I find compelling. In the business about 
photos, for example, on-orbit photography. They would say, ``It 
doesn't make any difference whether you could have done 
anything to save this crew or not, we would have taken 
photographs just so we would have known what happened.'' I 
mean, the old-timers have a more flight-test, test-pilot kind 
of attitude that even though the loss of a crew is terribly 
regretful, if you have a test-pilot kind of an attitude, you 
always want to know what happened so that they did not die in 
vain. So, of course, they would have taken photographs. You 
would not have had to prove that there was a foam strike. All 
you have to do was scratch your head and say, ``Hey, I don't 
think I know what happened here,'' and the next thing all the 
lights would have gone off.
    And so that is compelling to me. In other words, you do not 
have to prove that somebody made a mistake, or you do not have 
to prove that an error in judgment was made. The old-timer 
attitude would have got you photographs ``just because.'' And 
maybe we could not have done anything about it, but we would 
have--maybe we would have known what happened in this 
particular case. It is more of an intellectual inquiry kind of 
an attitude.
    Senator you were not in the room when I mentioned earlier 
that we and NASA have just begun, ten days ago, a very in-depth 
and aggressive analysis of what could have been done. And I 
mentioned that we could not have done this earlier because 
there were too many emotions. Everybody was too close to it. 
But now that we have got a little time separated and we, the 
Board, know a little bit more about this, together we are 
looking very, very hard at what might have been done. But I do 
not really know that even if we find an answer, you know, put 
duct tape on it or something like that, I do not know that it 
is going to result in whether or not--that it can result in 
whether or not we could have saved this mission or not. I just 
do not know.
    The only thing I do know, and I know that the Administrator 
agrees with me, is that we would not have done nothing. I mean, 
that is not the way we do things. We would have done something. 
And even if we only had a 10 percent chance of saving this, we 
would have--there were two EVA suits on-board; they could have 
gone out and taken a look at it, they could have put duct tape 
on the thing--I mean, I do not know, I am just making that up, 
of course. But they would have done something.
    The Chairman. Senator Sununu?
    Senator Sununu. I thank you, Mr. Chairman.
    I want to begin by exploring this issue of accountability 
that the Chairman raised. Admiral, I think you said that, 
something to the effect, you do not want to ``pick on'' those 
that were responsible for signing off on the flight security, 
because if there is a flawed process, even if you have a 
replacement, you will still have a flawed process.
    And I would maybe differ with that just slightly. The 
Chairman used an example of the U.S.S. MISSOURI, I think, that 
ran aground. Now, I do not know that they changed the process 
or not, but my guess is not only did the subsequent captain not 
run aground, I bet the Missouri never ran aground again.
    So we do not want to single anyone out inappropriately. We 
want the criticisms to be based on good information, good 
analysis. But I do think there is something to be said for a 
system that does hold those in a position of responsibility 
accountable, even if there is a flawed process and even if you 
are not sure you have implemented a perfect process, because a 
system that holds individuals accountable will create an 
incentive for those in a position of responsibility to do 
everything possible to make sure the support systems, the 
processes that help them make decisions, are good ones. Would 
you agree with that?
    Admiral Gehman. I think you--I support your comments 
completely. I come from a system that is the way we do 
business. And I have no problem whatsoever with the process, 
the Administrative processes, of NASA and the Congress and the 
Administration, of taking whatever steps are necessary if you 
think someone's performance was lacking. It is just not the 
function of this Board.
    Now, you will be able to tell from my report where to go 
looking. We are not ducking the issue. It is just not the 
function of this Board. The function of this Board is to try 
and make space flight safer, to find out what happened and try 
to make space flight safer in the future if we can. And we 
believe we will be able to do that for you. And if there are--
if we found that someone had not executed their duties in 
accordance with NASA regulations, we will note that. But that 
is not the purpose of this Board.
    Mr. O'Keefe. Senator, if I could. I think at the conclusion 
of this investigation, when this report is finalized and after 
the agency takes said actions to implement those findings, I am 
confident you will find no ambiguity on this question of 
accountability at all.
    Senator Sununu. Excellent, thank you.
    Senator Breaux, in his line of questioning, talked about 
the foam insulation breaking loose, and I want to be clear on 
what you said. I think you indicated that there had been 30 
impacts, approximately 30 impacts, that had resulted in a 
specific amount of damage.
    Admiral Gehman. One inch.
    Senator Sununu. One inch? Or I take it that is one inch or 
greater.
    Admiral Gehman. One inch or greater.
    Senator Sununu. And----
    Admiral Gehman. Sir, excuse me, per flight.
    Senator Sununu. There have been an average of 30 impacts 
per flight that have resulted in damage of one inch or greater. 
And can you describe--when you say ``damage of one inch or 
greater,'' can you give us a little bit more background or 
detail as to what type of damage that is and what part of the 
Shuttle?
    Admiral Gehman. Yes, sir. It is on what we call the 
``acreage tile,'' the 25,000 individual tiles, like this. And 
we are talking about a divot, a chip, that is greater than one 
inch in any dimension. And underneath this black is white, so 
if you chip this, it is pretty obvious. So a chip in the tile 
anyplace on the orbiter in the thermal-protection system that 
has a dimension in any direction of greater than one inch.
    Senator Sununu. Thirty, an average number or----
    Admiral Gehman. Thirty is an average number.
    Senator Sununu. And talk to me a little about the standard 
deviation. Did it vary greatly from flight to flight or----
    Admiral Gehman. There were----
    Senator Sununu.--was it pretty consistent that you would 
have 30 impacts of that nature?
    Admiral Gehman. With the exception of four or five flights 
in which there were tremendous variations, up in the hundreds, 
and these were accounted for--for example, when NASA changed 
what we call the ``blowing agent,'' the air power behind the 
foam application, in accordance with EPA regulations to stop 
using freon, on the very next tank that flew with the new 
blowing agent the number of divots was up in the hundreds. They 
immediately knew what the problem was. They changed blowing 
agents. It had gasified in a different way that they had not 
anticipated. So they fixed it, and the next time it went back 
down to 30, just like that.
    I would also tell you, Senator, that the trend over all 113 
flights is flat, not getting any better.
    Senator Sununu. There seems to be, or have been, a process 
to measure and quantify the damage from these impacts. Was 
there any process, albeit unsuccessful, from your description, 
to address or reduce the number of impacts?
    Admiral Gehman. There have been steps taken. There have 
been discussions, meetings, studies, analyses to reduce it. 
Unsuccessful. And while our audit--we call it an ``audit,'' 
because--we call it ``following the foam''--there is a foam 
audit going on right now, all the way from the first flight, 
trying to go through the records to see what the records say 
that these various boards and committees did to adjudicate, 
``What should we do about the foam?'' And, generally speaking, 
the records kind of just die off. What I mean is that the issue 
just kind of goes away. It is never actually really addressed 
in an engineering point of view.
    Senator Sununu. When did it go away?
    Admiral Gehman. What happen is, is that the foam hits the 
orbiter, there are a couple of significant issues, it appears 
on the FRR, the flight readiness review, and various material 
Boards, they study it real hard to see what they can do about 
it, they have four or five more flights in which there are only 
minor problems, and they say, ``Well, looks like it is not a 
big problem.'' And then what happens is that success clouds 
their engineering judgment. They say, ``Well, look, it is still 
happening, but nothing bad is happening. It looks like it is 
okay.'' Then another couple of years will go by, and something 
big will happen, it will appear in the records again, some 
studies will be ordered, some engineering analysis, maybe a 
fix, and then the number go back down to reasonable numbers, 
and success again breeds this attitude that it looks like it is 
okay.
    Senator Sununu. But it is fair to say the average number of 
impacts over the last, just say, 20 flights was relatively 
constant.
    Admiral Gehman. All the way from the first one, it is 
relatively constant.
    Senator Sununu. Throughout, the issue of space debris was 
raised during just some of the early press accounts, guesswork, 
hypothesis, you know, of what might have happened. I assume 
that has been reviewed pretty thoroughly by the Board. Is that 
concern or question still a possibility as a cause of damage or 
perhaps something that made existing damage worse while in 
orbit? And on a related note, have you learned anything or come 
to any conclusions about our ability to track and to deal with 
the threat of space debris to future flights?
    Admiral Gehman. The issue of the possibility of the orbiter 
being hit by space debris is unresolved by the Board at this 
time after a lot of work. The Board understands the ability of 
the United States to track space debris down to a certain size, 
and the Board understands how the orbiter is maneuvered around 
the intersection--you can call ``conjunction''--with space 
debris down to a certain size. But then micrometeorite, the 
little, tiny stuff that we cannot track, that we do not even 
know is out there, remains an open issue.
    And we have attempted to get at this issue by a number of 
very clever ways. The orbiter has some very, very sensitive 
accelerometers on-board the output of which is recorded on-
board and not ``telemetried'' down to earth. It turns out that 
the recovery of this data recorder, which is a miracle, has 
allowed us to read out those accelerometers. There are a couple 
of little jiggles in some of those accelerometers, which would 
suggest that we need to look harder at that. But we cannot rule 
out a tiny little micrometeorite kind of a strike.
    Senator Sununu. My final question for the----
    The Chairman. The time has expired.
    Senator Sununu. May I ask just one final question?
    The Chairman. Go ahead.
    Senator Sununu. And I think it is a short answer. In 
hindsight, or looking back to the very first few days of this 
investigation, which was a difficult time for so many people, 
is there anything at this point that you would look back and 
say, ``You know, in hindsight, in the first few days, I do wish 
we had taken a particular step or structured things slightly 
differently or taken some time, you know, to facilitate a 
particular task,'' anything that you could identify, 
Administrator?
    Mr. O'Keefe. I guess, as a personal and professional 
philosophy, my attitude is make the best decision you can based 
on the information you have at the time and move on and 
continue to progress. I do not spend a lot of time thinking 
back to what we mighta, coulda, shoulda, woulda. I think it is 
as professional and as straightforward a process as I know how 
to do, and it was within hours that not only the NASA team, but 
also the Columbia Accident Investigation Board, was empaneled 
and the investigation began immediately. Everybody followed a 
contingency plan that I had personally reviewed several times, 
in the event something like this could happen, and was very 
content that starting at 9:29 that morning, the first action 
item on that contingency plan was actionable, and we followed 
the procedure exactly the way we had talked about it. Secure in 
the knowledge that we would likely not ever have to use it, we, 
nonetheless, had to, and I just cannot look back on that and 
really revise the history of it.
    If I could, very quickly, Senator, just observe one point, 
I think, in the discussion here that you have had on the 
strikes. This is the--the tile damage on each and every 
flight--Admiral Gehman has got it exactly right--some of it 
comes from foam strikes, no question about it. And there are 
many other things that will also damage the tile. Of those 
25,000 tiles that are aboard, as soon as every orbiter has 
landed, the first thing the commander wants to do first, and 
Senator McCain will appreciate this, is you want to make sure 
that the wheels are right on the center line of the runway. 
That is the first obsession on the part of every commander. The 
next step, though, is to walk around the orbiter and observe 
every one of these strikes. And there are lots and lots of 
streaking that occurs on the tiles.
    And based on the condition of those tiles, they are either 
replaced or repaired in between flights, and the issue that I 
think Admiral Gehman was talking about--so, in other words, 
there are a lot of contributing factors; not just foam, but 
plenty of other incidents that will occur on orbit or on re-
entry that will create a visible kind of damage to the tiles 
on-board the Shuttle itself. And each of those are either 
replaced or repaired.
    But the issue I think that Admiral Gehman is raising that 
really, really is a point of deep consternation with us right 
now, that we are really doing a lot of soul searching about, is 
there are certain aspects of this that were tolerated because 
it had this exacting kind of ``no unusual circumstance out of 
the norm.'' And so what academics are referring to is the 
normalization of deviation, as in ``if you see it so many 
times, you finally consider it to be an acceptable condition,'' 
is the issue. That is the point we are really doing some deep 
soul search about.
    And as we talked about earlier, why we ever got into a 
position where we tolerated anything greater than zero on this 
is the point we are really debating among ourselves right now 
and trying to determine how we can create a system that would 
never tolerate that kind of circumstance again. And it is not 
just foam; it is the range of things that could tell you, in a 
trend, what could potentially become a deep compromise to 
safety-of-flight consideration. That is the deeper issue that I 
think is being raised by the Board, that we are hearing in 
public testimony, we are hearing supported, and we are clearly 
seeing evidence of that concern, and we are wrestling with, How 
do you adjust that process to assure that kind of understanding 
in the future?
    The Chairman. Mr. O'Keefe, did you request $15.5 million 
for the Institute for Scientific Research in Fairmont, West 
Virginia.
    Mr. O'Keefe. No, sir.
    The Chairman. How about $7.6 million for hydrogen research 
being conducted by the Florida State University system?
    Mr. O'Keefe. Not that I am aware of.
    The Chairman. 2.25 million for the Life Sciences Building 
at Brown University, Providence, Rhode Island?
    Mr. O'Keefe. Not that I am aware of.
    The Chairman. You will notice that each of these are 
geographically specific? How about $1.8 million for the 
construction of a Gulf of Maine Laboratory at the Gulf of Maine 
Aquarium Foundation? Did you request that?
    Mr. O'Keefe. No, sir, not that I am aware of.
    The Chairman. How about 1.35 million for expansion of the 
Earth Science Hall at the Maryland Science Center in Baltimore, 
Maryland? Did you ask for that?
    Mr. O'Keefe. No, sir.
    The Chairman. I understand, also, you are paying for a bug 
exhibit in Chicago. I saw that on one of the networks. Did you 
see that?
    Mr. O'Keefe. I am not aware of it, sir.
    The Chairman. And yet your budget has been largely flat.
    Mr. O'Keefe. I had a 3 percent increase last, and 
projected, if the Congress will tolerate, a 4\1/2\ percent 
increase this year that we hope for Congress' support.
    The Chairman. I am talking about in previous years.
    Mr. O'Keefe. Yes, sir. Prior--yes, sir.
    The Chairman. Well, in the issue of responsibility, Admiral 
Gehman, I hope that you will, in your deliberations, if there 
are programs, critical programs, that have been underfunded in 
this pork-barrel spending, which is in the hundreds of millions 
of dollars over the past few years--hundreds of millions of 
dollars--unrequested, add-ons, some outrageous, some not so 
outrageous, some of it may be good things, none of it 
requested--as I mentioned earlier, it went from, in 1998, from 
24.7 million to 167 million in 2003--I hope that the Board, 
when we are talking about responsibility, will talk about the 
responsibility of Congress to spend these monies that are 
earmarked for NASA that are supposed to be for programs 
associated with NASA rather than pork-barrel spending and 
whether that may have impacted the funding of critical 
programs. I hope that the Board will be looking at that, 
Admiral Gehman.
    Admiral Gehman. We will, sir. We are going to look at 
budgets, and $100 million will buy a lot of safety engineers.
    The Chairman. Thank you. As I mentioned, last year it was 
$167 million, and some of it, it just staggers the imagination, 
has no more relation to--well, anyway.
    I have one additional question for Mr. O'Keefe. We all know 
what happened to the Soyuz capsule, steep angle, 10 Gs, 300 
miles away, no radio communications. Are you confident that 
that is a vehicle that should be used in this interim period? 
And if not, what are the options?
    Mr. O'Keefe. Certainly, this was an outside-the-norm 
landing pattern. It was an upgrade of the Soyuz capsule, and it 
was the first time that specific upgrade module had flown. The 
Rosaviakosmos, the Russian Space Agency, is conducting an 
investigation now. We are a participant, and we have got 
members who are involved there. We have got a significant team 
of folks who are resident in Moscow and in Star City, who are 
working with the Russian engineers to determine exactly how 
this particular abnormality occurred. But it is not outside the 
envelope of what would have been expected. A ballistic re-entry 
can and does occur. Very infrequently, but it did. And in this 
particular case, trying to determine exactly what caused it in 
this particular case is what our objective is all about.
    Having said that, it has not posed a safety-of-flight, you 
know, factor, and it is not one that our outside folks, General 
Stafford and others who have reviewed the flight worthiness of 
the Soyuz, have concluded that it is a more than acceptable, 
flight-worthy craft for the purpose of the effort we are 
engaged in now to replace the International Space Station 
Expedition crews.
    So our confidence is still very high. It was, no question 
about it, the better part of two-and-a-half hours of extremely 
anxious period and four hours before we were able to get a 
visual, look-'em-right-in-the-eye determination that, yes, 
everybody was okay. But all the commentary from--I met with all 
the crew immediately after they returned to Star City that day, 
and they found that while it was an exciting trip, it was not, 
nonetheless, something that they were untrained for. They knew 
that was within the envelope of how that happens.
    The Chairman. Ten Gs is a pretty----
    Mr. O'Keefe. It was----
    The Chairman.--interesting experience.
    Mr. O'Keefe.--really exciting. Yes, sir. No doubt about it.
    The Chairman. Senator Nelson has promised me that he will 
take a maximum of ten minutes, realizing that you have already 
been here for well over two hours, and I appreciate his 
involvement, his experience, and what he brings to this 
Committee on a variety of issues, but particularly on this one. 
He is also a man of his word. Ten minutes.
    Senator Nelson?
    Senator Nelson (presiding). Mr. Chairman, as long as they 
do not give ten-minute answers.
    [Laughter.]
    Senator Nelson. Mr. O'Keefe, were you aware of the piece of 
debris that left the Shuttle on flight-day one?
    Mr. O'Keefe. No, sir.
    Senator Nelson. Who was aware? And would they have had a 
responsibility of telling you about that debris?
    Mr. O'Keefe. Let me give you a full list of all the people 
who were aware of that particular incident.
    Senator Nelson. Make it short, because I have got lots of 
questions, and the Chairman wants to keep it short.
    Mr. O'Keefe. Sure. We will provide that for the record, 
sir.
    Senator Nelson. Okay.
    [The information referred to follows:]

    In addition to the official in the Space Shuttle Program, the 
Associate Administrator for Space Flight, the Deputy Associate 
Administrator for International Space Station and Space Shuttle 
Programs, and the Associate Administrator for Safety and Mission 
Assurance were made aware of the debris hit and advised that the MMT 
had determined the event not to be a safety of flight issue. The Space 
Shuttle Program Manager was also notified that the no safety of flight 
decision had been made.
    The Administrator is kept informed of any critical aspects of any 
NASA spaceflight mission. At this point in time during the mission 
where the foam debris was not defined as a safety hazard for the STS-
107 crew, it was not necessary to notify the Administrator.

    Admiral Gehman. Senator, the piece of debris orbiting the 
Shuttle on flight-day two was not discovered until six days 
after the accident. Nobody knew about this thing when the 
flight----
    Senator Nelson. Thank you for sharing that.
    Well, given the fact of the multiple thousands of hits from 
foam in the past, how far--did the safety people directly 
engage in a discussion about the foam hits?
    Mr. O'Keefe. I am advised they did, as recently as the STS-
113 mission, which was the one immediately preceding 107. There 
was a discussion at the flight readiness review of the foam 
strike--of significance, the bipod strike that had occurred on 
112--and they had reviewed that particular matter.
    Senator Nelson. Well, Admiral, of course, that will be a 
main part of your investigation. Admiral, when do you expect 
your commission to issue a report?
    Admiral Gehman. We are event-driven. I would characterize 
us as finishing up the investigation phase right now, and we 
are beginning the deliberation. We are going to move here to DC 
the first week in June and begin writing. It would be my goal, 
assuming that the Board can move along with me, to have our 
report delivered to you prior to the August recess. But I have 
to caveat that. That is my goal.
    Senator Nelson. Are you contemplating that you are going to 
recommend that the vehicle should be fully recertified?
    Admiral Gehman. I am afraid I am going to have to duck that 
question, because we have not got to that point yet. Every time 
we come to a conclusion about a recommendation, we issue it as 
soon as we can. We have a number that are percolating up right 
now, and that is not one of them.
    Senator Nelson. And, of course, as I said at the outset, it 
is enormously important to us that you are successful in this 
and that we can get on and get the thing fixed and start flying 
again. Now, in view of that, Mr. Administrator, I wanted to ask 
you, What are you anticipating in the way of an impact on the 
Shuttle workforce?
    Mr. O'Keefe. We are looking to mitigate that as much as 
possible right now. And, indeed, folks are very busy in 
preparation in working through the issues on return to flight. 
If anything, I think we are going to be short of folks that we 
may need, because, again the nature of the recommendations that 
Admiral Gehman and the Board have released thus far, as well as 
those yet to come, will require a diligent, extremely vigorous 
implementation of that effort, which will require everybody in 
the space flight community turning to very, very hard.
    Senator Nelson. By the way, Admiral, on the previous 
answer, why did we not discover on flight-day two that piece of 
debris trailing?
    Admiral Gehman. Well, Senator----
    Senator Nelson. Why was it only after the accident?
    Admiral Gehman. Right. Senator, the United States does not 
currently track the Shuttle. The United States Air Force Space 
Command and the U.S. Strategic Command keep track of everything 
that is in space. They keep track of all of our satellites, 
including the Shuttle when it is on orbit, for the purpose of 
making sure they do not run into each other. But we do not 
track it in the sense--like a fire-controlled guidance system 
or anything like that, that watches it.
    After this accident, we asked the U.S. Strategic Command 
and the Air Force Space Command to go back over all their 
millions and millions of records and pull out all of their 
observations of the Shuttle to see whether or not any damage 
could be detected. They could not detect any damage, but they 
found 3100 observations of the Shuttle, due course, and they 
discovered, in their reconstruction, ``Oh, look at this. Here 
is something that is orbiting alongside the Shuttle,'' which 
was reported to us six days after the accident.
    Senator Nelson. Thank you for clarifying that.
    Mr. O'Keefe, there is always this gut-wrenching question 
about whether the crew should have been told. What was the crew 
told about the strike by the foam and the likelihood of the 
damage?
    Mr. O'Keefe. To my knowledge--again, I will clarify this 
for the record if it needs further--they were not advised of 
that and were not advised of any significant damage, because, 
again, it was inside what was deemed, on every previous flight, 
every time that it occurred, within the realm of acceptable and 
not a safety-of-flight consideration. So, therefore, it was not 
raised with them specifically.
    Senator Nelson. And----
    Mr. O'Keefe. Lots of other things were. Many other issues 
were raised with the crew regularly. But this did not rise to 
that level. That was a judgment call and one that was 
determined not to be a safety-of-flight consideration.
    Senator Nelson. And, Admiral, as you make your 
recommendations, I would respectfully suggest that the old-
timers would say that they would definitely want the crew 
involved.
    Admiral Gehman. I think that if you will let us respond for 
the record, Senator, I think that we can shed more light on 
that subject. I think there is--I am not completely conversant 
with every detail, but the crew was advised at some time, and I 
do not know exactly when and what day it was or whether they 
were consulted or not. But let us get that for the record for 
you. There are some facts there.
    Mr. O'Keefe. On that point, Admiral, and exactly right, I 
guess the question, as I interpreted it, Senator--I apologize--
was, ``Were they specifically consulted and advised about it?'' 
They received the daily flight reports from the Mission 
Management Team, and on those reports was the noted incident of 
strike and a resolution of the question, I believe, on day 12, 
in which, unambiguously, it says, ``We've analyzed this, 
examined the issues, and determined it is not a safety-of-
flight consideration.'' So it was treated as another data 
point. It was not something that was raised specifically.
    So as you are well aware, the process during the course of 
on-orbit is you receive lots of data, lots of information, lots 
of reporting back and forth with mission control, and it comes 
in many forms, some by voice, some by the notice and 
requirements. But in this particular case, it was noted on the 
Mission Management Team reports, and that will be provided for 
the record, as I think it was on February 12th, at that 
hearing. But there was not a specific dialogue that I am aware 
of with the commander or the payload specialists--I am sorry--
the mission specialists aboard that were specifically engaged 
in the activity. I do not believe that was the case, but I will 
provide that for the record, as well.
    [The information referred to follows:]

    On January 23, 2003, Steven Stich, a NASA Space Shuttle Flight 
Director who was working the Orbit 1 (first) shift in the Mission 
Control Center during the STS-107 mission, sent an e-mail to Columbia 
Commander Rick Husband, informing Col. Husband that NASA had observed 
some debris striking the orbiter during launch.
    In this e-mail, Mr. Stich indicated that initial engineering 
analysis suggested that the debris did not pose a safety of flight 
issue to Columbia. Col. Husband replied to the e-mail, acknowledging 
its receipt and clearly indicating his understanding of the 
notification provided. A few hours later, Mr. Jeff Hanley, another 
Orbit 1 Mission Control member, transmitted a second e-mail to Col. 
Husband containing video of the launch and showing what appeared to be 
a piece of foam from the External Tank striking Columbia. No other 
communication in any form occurred between NASA and the crew concerning 
this matter.
    The foregoing e-mail exchange used the ``personal'' e-mail channel, 
and followed receipt of several media inquiries concerning the foam 
debris visible during ascent. The Johnson Space Center newsroom 
believed the information might prove useful if questions were posed 
about it during a scheduled series of in-flight interviews on January 
25. While the personal e-mail protocol was not created to provide 
mission-related information to orbiter crews, such use is not unusual 
or unprecedented. Although anticipated operational, media, and other 
issues are normally provided to the crew as part of a standard daily 
``package,'' NASA has reviewed each of these packages, and has 
confirmed this exchange as the sole source of information on the debris 
strike provided Columbia.
    The STS-107 Mission Management Team (MMT) finished its evaluation 
of the debris strike on January 27, four days after the Stich-Husband 
e-mail exchange. Based on the findings of the debris assessment team, 
the MMT concluded that the debris impact did not pose a safety of 
flight issue; consequently, no additional information was provided to 
the Columbia crew.
    Copies of the MMT minutes, this e-mail exchange, and the daily 
``packages'' will be available on the NASA web site at: http./
www.nasa.gov/columbia/foia/index.html

    Senator Nelson. Well, I know that to cut the crew out, you 
are eliminating a great resource, and I know that there have 
been many occurrences where emergencies have arisen in the past 
that the crew responded immediately and had the problem fixed 
before mission control even knew about it. So you all will 
deliberate that in due time.
    Well, let me just wrap up here for the Chairman, and you 
can provide these for the record.
    What I want to do is what all of us want to do. I want us 
to get the problem fixed and get flying and get back and 
utilize these wonderful assets that we have out there, 
including the Space Station. But we are going to have to attend 
to safety in a way that we never have. And, of course, you have 
heard me rail from this podium in the past about, over the past 
decade, of the safety upgrades not being done on the Space 
Shuttle, and delayed.
    So if you, Mr. Administrator, will provide for the record, 
How does NASA determine what Shuttle upgrades are required, and 
how these upgrades will be selected and prioritized? And does 
NASA have a 2020 plan to show when the Shuttle-upgrade 
requirements will be completed? And then if you will round that 
out as we are grappling to get the technologies for a follow-on 
vehicle, why have we seen so many missteps in the development 
of a second-generation technology in NASA's program?
    Any comment now? And then, if you would, supply the rest of 
it for the record.
    Mr. O'Keefe. Yes, sir. I will be delighted to provide all 
that for the record.
    [The information referred to follows:]

    General Michael Kostelnik, Deputy Associate Administrator for the 
International Space Station and Space Shuttle Programs, initiated a new 
Space Shuttle Service Life Extension Program (SLEP) during the past 
year, which is responsible for providing a coordinated review of the 
Space Shuttle upgrades by the entire space flight community. During the 
annual SLEP Conference, the Chairmen of the seven SLEP panels--Safety, 
Sustainability, Infrastructure, Resources, Industry, Performance, and 
Operations--present the prioritized list of upgrades their panels 
support for the coming year. The Integration Panel prioritizes these 
seven sets of upgrades into a single set of requirements, which is 
presented to the Space Flight Leadership Council. The Space Flight 
Leadership Council approves the final upgrades requirements for 
inclusion as part of NASA's annual budget cycle. As long as the Space 
Shuttle is required to be available for flight, the SLEP process will 
be conducted to ensure that the Space Shuttle is maintained at the 
proper level for safe human space flight.

    Mr. O'Keefe. We are moving ahead aggressively on the 
orbital space plan to guarantee a crew-transfer vehicle 
capacity between here and the International Space Station. That 
is its mission, that is its objective. To use, then, the 
Shuttle for the purpose of the heavy-lift cargo capacities, as 
required. That is a mid-term kind of a requirement.
    We are also developing the next-generation launch 
technologies which will ultimately provide for a space-
exploration vehicle. Whether it is a replacement for Shuttle or 
not is something that, really, we ought to think about long and 
hard, because it is only capable of orbit within low-earth 
orbit, it has minimal maneuverability, it has no power-
generation source of its own, all of which are things we need 
to correct, from a technology standpoint, to look at anything 
beyond low-earth orbit. I think you will see emerge from this 
process an answer on that front for the longer term, ``What 
replaces this capability for more expansive space-exploration 
objectives,'' in very short order.
    Senator Nelson. Gentlemen, thank you very much. The meeting 
is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Responses to Written Questions Submitted by Hon. John McCain to 
                           Hon. Sean O'Keefe

    Question 1. In the recently submitted NASA FY 2003 Operating Plan, 
it was stated in the Congressional Increases section that $900,000 had 
been provided for the ``Computing, Information, and Communication 
Technology Program only for Mobile, Wireless, and Broadband Internet 
Capability.'' It was indicated in the plan that this earmark had been 
inadvertently dropped as an earmark from the final Conference 
compilation. Can you explain how this process of adding ``inadvertent'' 
earmarks works within NASA?
    Answer. The Congressional increase for the item in question was 
included as part of total funding provided for Aerospace Technology 
programs in House Report 107-740, accompanying H.R. 5604, the FY 2003 
VA-HUD-Independent Agencies Appropriations Bill. Conference action 
yielded a total for Aerospace Technology that was $900,000 greater than 
all items listed in the Report. Committee staff subsequently notified 
NASA that this item had been inadvertently omitted from the Conference 
Report, and requested that NASA include it in the Operating Plan as a 
technical correction.

    Question 2. Based upon commercially available satellite imaging, 
can you comment on the utility of having satellite images of the 
Columbia's left wing on-orbit?
    Answer. NASA has significantly enhanced procedures in place to 
maximize available national assets to assess Shuttle orbiters during 
human space flight missions. The memorandum of agreement between NASA 
and NIMA was finalized on July 11, 2003.

    Question 3. What lessons has NASA learned from its analysis of the 
Columbia tragedy? What have you done to ensure that these ``lessons 
learned'' are fully integrated into NASA's management and operations? 
Is there a definitive ``lessons learned'' program at NASA to minimize 
the repetition of past mistakes?
    Answer. On February 1, 2003, NASA pledged to the Columbia families 
that we would find the problems, fix them and return to the exploration 
objectives to which they dedicated their lives. NASA has just received 
the Columbia Accident Investigation Board (CAIB) report, which fulfills 
the first of NASA's commitments to the families. To fulfill the second 
commitment--fixing the problems--the first important step is that NASA 
has accepted the findings and recommendations of the CAIB report and 
will comply with them. The CAIB report represents a valuable blueprint 
and roadmap to achieving the second commitment, and the Board provided 
NASA a head start by releasing information throughout their 
deliberations. As of this time, NASA has developed a preliminary 
Implementation Plan for the recommendations of the CAIB, and will 
update it now to include all the findings and recommendations. The next 
step involves wise choices by NASA to select the options necessary to 
comply with the recommendations. In addition, all of the ``lessons 
learned'' will be documented in the NASA Lessons Learned Information 
System including information and recommendations provided by the CAIB.

    Question 4. Questions have been raised by NASA's impact analysis 
performed by Boeing of the foam strike on the left wing of the 
Columbia. In response to post hearing questions from the Committee's 
earlier hearing on the Columbia accident, NASA stated the results of 
scenarios 5 and 6 from the impact analysis were ``discussed''. Is this 
an acceptable practice of documenting results at NASA?
    Answer. Results of the analysis were presented (discussed) during a 
Mission Management Team (MMT) meeting during the STS-107 flight. This 
MMT process is being strengthened to provide rigor and a requirement 
for documented presentations.

    Question 5. What role did the NASA Safety Office play in the 
assessment of the impact analysis?
    Answer. The safety community was actively engaged in the review and 
assessment of the impact analysis that was prepared and presented by 
Boeing. A safety representative (from the JSC safety organization) was 
present at all the meetings during which this topic was discussed, 
including the Mission Management Team briefings. The safety community 
agreed with the conclusion that a safe return of the vehicle was 
likely, provided that the suspected damage was bounded within the 
limits of the damage assessment estimates and the analytical 
capability. The safety community, based on input from the safety 
representative on the team through status reporting up to the Associate 
Administrator, Office of Safety and Mission Assurance, was aware of the 
findings and recommendations of the analysis and concurred with the 
Shuttle program's assessment that there was no significant re-entry 
risk due to any anticipated tile damage. Further, a safety 
representative was present at all of the Shuttle program manager's 
weekly status teleconferences, where the topic was openly discussed 
among all the team members.

    Question 6. The Columbia Accident Investigation Board has already 
made two recommendations. The first one was that NASA should develop 
and implement a comprehensive inspection plan, using advanced non-
destructive inspection technology, to determine the structural 
integrity of all Reinforced Carbon-Carbon (RCC) system components. The 
second recommendation was that NASA should modify its Memorandum of 
Agreement with the National Imagery and Mapping Agency (NIMA) to make 
on-orbit imaging for each Shuttle flight a standard requirement. What 
steps have you taken to implement these recommendations, and how much 
will they cost?
    Answer. NASA is in the process of developing the comprehensive plan 
for inspecting all RCC components. A technical interchange between NASA 
and industry representatives was recently held to assess available 
state-of-the-art methods of non-destructive inspection. Additional non-
destructive inspection methods, such as thermography and shearography, 
are being evaluated to determine their effectiveness in determining 
potential flaws in various materials used in the Shuttle program.

    Additionally, NASA and the NIMA have finalized an updated agreement 
for support of Space Shuttle missions.

    Question 7. What type of inspections was NASA doing to the RCC 
components on the leading edges of the Shuttle wings prior to the 
Columbia accident?
    Answer. As specified in the Orbiter maintenance document, the 
following inspection were conducted on the wing leading edges of each 
Orbiter:

 <bullet>   Surface tactile inspection--every flight

 <bullet>   Visual surface inspection--every flight

 <bullet>   Pre/post-flight lower access panel micro inspections--every 
        flight

 <bullet>   RCC pinhole inspection--every Orbiter maintenance and major 
        modification period

 <bullet>   Detailed breakdown inspection including eddy current and 
        ultrasound--every Orbiter maintenance and major modification 
        period

    Question 8. According to press reports, NASA has begun a widespread 
review of critical design and safety features and management practices 
to prepare for returning the Space Shuttle to flight. NASA officials 
are reported to believe that it could take 18 to 24 months before the 
Shuttle will fly again. Could you please describe what NASA is 
reviewing, and NASA's ``return to flight'' strategy?
    Answer. Return to Flight actions will consider, but not be limited 
to:

 <bullet>   Review the adequacy and robustness of key Space Shuttle 
        hardware systems.

 <bullet>   Review the Certificate of Flight Readiness and MMT process

 <bullet>   Quantify entry risk

 <bullet>   Validate that controls are appropriate and implemented 
        properly for accepted risks

 <bullet>   Review Failure Modes and Effects Analyses, Critical Items 
        Lists, Waivers, etc.

 <bullet>   Review the identification and resolution of the in-flight 
        anomaly review process.

 <bullet>   Redesign of External Tank Bi-Pod thermal protection system 
        to eliminate foam.

 <bullet>   Improved vehicle inspection techniques and methods during 
        launch, ascent and on-orbit operations

 <bullet>   Develop on-orbit thermal protection system repair 
        techniques.

    Reaching specific milestones will drive NASA's Return to Flight 
effort, not specific calendar dates. NASA is working toward a target 
launch date for planning purposes, to keep Space Shuttle and Return to 
Flight processing moving forward, but the Agency is not locked into any 
particular date. NASA will launch STS-114 when the Agency determines 
that the Shuttle is ``fit to fly'' and when we have safely achieved 
specific milestones throughout the Return to Flight effort.

    Question 9. The halt in Space Shuttle operations will delay the 
construction of the International Space Station--a program that is 
already well known for schedule delays and cost overruns. What effect 
will the Columbia accident have on schedule and costs of construction 
of the Space Station?
    Answer. NASA has maintained the original delivery schedules for all 
items of U.S.-provided Space Station flight hardware and is continuing 
with the integration and test of all ISS launch packages as planned. 
Additionally, the European-provided, U.S.-owned Node 2 was delivered to 
NASA Kennedy Space Center in June 2003, completing the delivery of all 
flight elements needed to complete the U.S. Core configuration. 
However, delays to the ISS assembly sequence resulting from the 
Columbia accident will require NASA to retain critical contractor 
expertise longer than anticipated. NASA has just received the report of 
the CAIB. We will not know the extent of overall delays or costs until 
we have received and assessed the final recommendations of the CAIB and 
progressed further into our return to flight planning.

    Question 10. Last year NASA appointed a Mishap Investigation Board 
to examine the loss of the CONTOUR mission, a satellite that broke 
apart last August. Are the Columbia and CONTOUR accidents being treated 
as isolated events or in context of NASA's long term plans?
    Answer. The CONTOUR and Columbia accidents are both being addressed 
in terms of NASA's long-term plans. While these accidents involved very 
different kinds of spacecraft, there are nonetheless some important 
common elements in both mishaps with regard to NASA's approach to 
engineering rigor, processes, and instincts. These common elements are 
among those addressed in ongoing improvements to NASA's engineering 
culture, in part by the establishment of the NASA Engineering and 
Safety

    Question 11. Could you please expand upon the purpose of General 
Stafford's independent assessment team and the role that it will play 
in NASA's implementation on the Columbia Accident Investigation Board's 
recommendations?
    Answer. The Return to Flight Task Group, led by Gen. Tom Stafford, 
has been tasked to perform an independent assessment of NASA's actions 
to implement the recommendations of the CAIB, as they relate to the 
safety and operational readiness. While the Task Group will not attempt 
to assess the adequacy of the CAIB recommendations, it will report on 
the progress of NASA's response to meet their intent.

    Question 12. Can you update us on your consideration of crew escape 
mechanisms on the Shuttle orbiters?
    Answer. Crew survivability has been studied continuously since the 
Challenger accident. Through the Shuttle Life Extension Program (SLEP), 
additional studies are planned to further refine a number of crew 
escape concepts that were developed in a 1999 study conducted by the 
Orbiter Project together with United Space Alliance and Boeing Company.

    Question 13. You testified during the hearing that you were 
concerned by the ``normalization of deviation'' at NASA, especially the 
toleration of foam insulation falling from the External Tank, because 
it happened so many times it was considered an acceptable condition. 
The recent return of Expedition 6 by Soyuz capsule was also considered 
an ``outside-the-norm'' landing pattern, but NASA has claimed that it 
was not a ``safety-of-flight'' issue, because similar landings had 
occurred before. Are you concerned that NASA's response to the Soyuz 
landing is yet another case of ``normalization of deviation?'' What do 
you intend to do to ensure that the cause of this ``outside-the-norm'' 
landing is found and fixed, so that it doesn't happen again?
    Answer. The ballistic mode of re-entry for the Soyuz TMA-1 (ISS 
Flight 5S) descent module was one of four pre-programmed modes of re-
entry. Soyuz crews are trained for all four modes. The ballistic re-
entry was conducted safely and as designed and the Soyuz TMA-1 (ISS 
Flight 5S) landed in the predicted ballistic descent landing zone. The 
crew was never in danger.

    Experts from Russia and the United States are making every effort 
to fully understand and resolve the factors that contributed to the 
Soyuz TMA-1 (ISS Flight 5S) spacecraft's return to Earth in the backup 
ballistic mode. The Russian Aviation and Space Agency (Rosaviakosmos) 
established a technical investigative Board, which it calls a 
``Commission,'' led by RSC Energia the responsible organization for 
Soyuz manufacturing, to determine the cause of this mode of re-entry 
and provide specific recommendations. The Commission determined that 
the Soyuz automatically switched to the ballistic mode shortly before 
re-entry when the on-board computers received an indication of a 
failure in the capsule's electronic attitude control system.
    The NASA Advisory Council Task Force on International Space Station 
Operational Readiness (the Stafford Task Force) will work with its 
counterpart Russian organization, the Rosaviakosmos Advisory Expert 
Council (together referred to together as the Stafford-Anfimov Joint 
Commission), to conduct an assessment of the Commission's investigation 
of the Soyuz TMA-1 (ISS Flight 5S) re-entry. This assessment occurred 
during the week of July 21 in Moscow. The Deputy Associate 
Administrator of NASA's Office of Safety and Mission Assurance is an 
ex-officio member of the Stafford Task Force and will be integrally 
involved in the Joint Commission's review of the Commission's 
investigation.
    NASA, which has been regularly briefed by the Commission throughout 
its investigation, will review the Commission's investigation, and the 
assessment of that investigation, by the Stafford-Anfimov Joint 
Commission. NASA will continue to work with our Russian colleagues to 
ensure that all necessary follow-up actions are implemented.

    Question 14. I understand that the tiles are so sensitive that the 
Shuttle will not launch in the rain, and touching them can cause 
damage. If this is the case, why, when there was an image of debris 
hitting the tiles, did not this result in the immediate classification 
of this event as a serious emergency that threatened the loss of crew 
and/or orbiter?
    Answer. Given the information available at the time that the foam 
hit the wing of Columbia, it was presumed that the impact was to the 
tile-covered underside of the wing and not the leading edge. A tile 
assessment and analysis concluded that the impact to tile was not a 
safety of flight issue. If it had been known that the impact was to the 
wing leading edge, a different analysis would have been conducted.

    Question 15. NASA has stated that safety is a top priority for the 
agency. What role did NASA's safety office play in the decision 
concerning Columbia's re-entry?
    Answer. The safety community was actively engaged in the review and 
assessment of the impact analysis that was prepared and presented by 
Boeing. The Shuttle's Mission Management Team includes a safety 
representative. Safety personnel agreed with the conclusion that a safe 
return of the vehicle was likely, provided the suspected damage was 
bounded within the limits of the damage assessment estimates and the 
analytical capability. The safety community, based on input from the 
safety representative on the team through status reporting up to the 
Associate Administrator, Office of Safety and Mission Assurance, was 
aware of the findings and recommendations from the analysis and 
concurred with the Shuttle program's assessment that there was no 
significant re-entry risk due to any anticipated tile damage.

    Question 16. Recently, the Soyuz, which is the only vehicle 
currently being used to reach the International Space Station, missed 
its landing target by 300 miles, and came in at the wrong angle, 
subjecting its 3-man crew to high gravitational forces. What has NASA's 
Safety office done to address concerns about Soyuz's safety and 
reliability?
    Answer. Russia's RSC Energia, which is responsible for Soyuz 
manufacturing, established a technical review Board to conduct an 
investigation into the possible causes of the Soyuz TMA-1 spacecraft's 
return to Earth in the ``ballistic mode'' of re-entry. The Board 
determined that the ballistic descent mode likely occurred due to the 
failure of one of the descent control system instruments. The Board was 
then tasked with detecting the failure location, specifying its origin, 
and generating specific recommendations to prevent similar situations 
from occurring during subsequent flights of the Soyuz TMA spacecraft.

    It should be noted that the ballistic mode of re-entry for the 
Soyuz TMA-1 descent module was one of four possible programmed modes 
for re-entry. Soyuz crews are trained for all four-re-entry modes. The 
Soyuz TMA-1 landed in the predicted ballistic descent-landing zone.
    The NASA Advisory Council Task Force on International Space Station 
Operational Readiness (the Stafford Task Force) will work with its 
counterpart Russian organization, the Russian Aviation and Space Agency 
(Rosaviakosmos) Advisory Expert Council (referred to together as the 
Stafford-Anfimov Joint Commission), to conduct an assessment of the 
Energia Board's investigation of the Soyuz TMA-1 re-entry. This 
assessment occurred during the week of July 21, 2003 in Moscow.
    NASA will review the Energia Board's investigation and the 
assessment of that investigation by the Stafford-Anfimov Joint 
Commission, and will continue to work with our Russian colleagues to 
ensure that all necessary follow-up actions are implemented.

    Question 17. Given the history of tile damage to the Shuttle 
orbiters during a mission, do you have any thoughts as to whether or 
not on-orbit contingency plans should address this problem?
    Answer. NASA is currently assessing various new technologies that 
could provide methods to inspect and repair damage to the Orbiter's 
thermal protection system during flight. Previously, there were no 
methods available that did not subject the crew or vehicle to 
additional risk.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Hon. Sean O'Keefe

    Question 1. How does NASA determine what Shuttle upgrades are 
required and how these upgrades will be selected and prioritized?
    Answer. The new Space Shuttle Service Life Extension Program (SLEP) 
addresses the critical investments that will ensure the Space Shuttle 
can safely and effectively meet the requirements of the new Integrated 
Space Transportation Plan. The Deputy Associate Administrator for 
International Space Station and Space Shuttle Programs has created a 
process--the SLEP Summit--that will meet annually to identify and frame 
the immediate and long-range investment direction and strategy for 
SLEP.

    In preparation for the SLEP summit, eight panels were identified to 
examine and prioritize potential investments. The panels focused on 
Space Shuttle safety, sustainability, infrastructure, resources, 
operations, and performance issues. In addition, an industry panel was 
chartered to provide a unique industry perspective. With the exception 
of the industry panel, each panel was lead by a senior NASA manager and 
populated with a diverse membership across each space flight center and 
relevant NASA Headquarters functional offices and Enterprises. The 
panels were tasked with assessing the potential costs, risks, and 
benefits of additional investments for their respective areas.
    The first SLEP Summit was held on March 19-20, 2003 in Michoud, LA. 
The Panels briefed those in attendance and the Space Flight Leadership 
Council (SFLC) on their findings and recommendations for the strategic 
investments needed to maintain and improve the long-term operational 
capability of the Space Shuttle. On May 7, 2003, the SFLC selected its 
top priorities for investment from among the panels' recommendations. 
Additionally, recommendations from the Columbia Accident Investigation 
Board requiring long-term investment are likely to be incorporated into 
the SLEP process.
    A SLEP Summit will be held annually to re-evaluate and update 
Shuttle priorities and investment strategies.

    Question 2. Does NASA have a 2020 plan to show when the Shuttle 
upgrade requirements will be completed?
    Answer. The 2020 plan was an internal study that provided a 
foundation for identifying the resources required to maintain the 
safety and sustain the viability of the Space Shuttle program through 
2020. The Space Shuttle Service Life Extension Program (SLEP) is our 
current process. SLEP will prioritize and implement immediate and long-
range investment direction and strategy for the Space Shuttle. This 
includes many of the recommendations that were derived from the 2020 
study. Since a SLEP Summit will be held annually to re-evaluate and 
update Shuttle priorities and investment strategies, there is no 
detailed long-range plan roadmap that describes exactly what upgrades 
will be completed when.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                        Admiral Harold W. Gehman

    Question 1. Another issue that has been raised is about privileged 
information that the Board has gained from confidential interviews with 
witnesses. Could you please explain the importance of this privileged 
information to your investigation, and what will become of this 
``privileged'' testimony after the Board's work is done?
    Answer. The Columbia Accident Investigation Board (CAIB) conducted 
essentially two investigations in one. The first investigation was the 
accident investigation, that is, an investigation to determine what 
happened to the Columbia. This accident investigation was conducted 
with full disclosure of all processes and evidence obtained in support 
of the Board's findings and recommendations. The second investigation 
could be described more accurately as a safety investigation. It used 
procedures long established as effective by various government 
agencies, including allowing individuals to express frank and honest 
views and opinions in a manner that protects them from any threat, real 
or perceived, of retaliation from their organization. The statements of 
these individuals provide a very important view of organizational 
practices that relate to safety. Experience has shown that 
investigations frequently cannot obtain candid, truthful, or possibly 
incriminating information any other way. Therefore, being able to grant 
witnesses confidentiality is very important to the Board. The ultimate 
disposition of these protected statements has not yet been determined. 
If they are archived by the National Archives along with the rest of 
the Board's documents, every effort will be made to ensure that the 
Congress-CAIB agreement, regarding access and disclosure, will remain 
in effect.

    Question 2. In testimony before the Science, Technology, and Space 
Subcommittee, Dr. Alex Roland, a former NASA historian, testified that 
NASA originally planned for the fleet of Space Shuttles to be replaced 
every five years. Many observers have warned that the Space Shuttle is 
being used past its expected lifetime, and that it is becoming 
obsolete. There have even been reports that NASA engineers have to use 
the Internet site, E-Bay, to find sources for parts. Based on your 
investigation, do you believe that the Space Shuttle has become ``worn 
out'' and should be replaced?
    Answer. The referenced incident involving an E-Bay parts search 
involved an obsolete circuit card for a personal computer, part of a 
shop test equipment set at the NASA Shuttle Logistics Depot (NSLD); it 
was not flight hardware, which requires full certification in all 
instances. NSLD personnel work very hard to either repair parts or have 
spares available. From May 2, thru Apr 3, 18,213 parts were delivered 
from stock with no orbiter cannibalizations, a testament to effective 
repair and stocking efforts. For flight hardware as well as ground 
systems equipment, one of the significant challenges to NSLD has been 
what is referred to as ``Diminishing Manufacturing Sources,'' or DMS. 
The availability of spare parts is an ongoing challenge for all 
systems, not just the Shuttle, but has little to do with the Shuttles 
being ``worn out.'' The Shuttle mission life capability is continually 
updated by NASA, which has concluded that 100 missions are achievable.

    Question 3. One area that the Board said it would investigate 
concerns NASA's use of contractors. Specifically, the Board has 
indicated that it will examine NASA's inspection and oversight of 
contracts, and whether NASA is making high enough demands from private 
companies in its contracts. Could you please discuss the work that the 
Board has done in this area?
    Answer. The CAIB has examined the relationship between NASA and its 
contractors at various levels, starting at the top (Space Flight 
Operations Contract) and including actual performance at the tactical 
level (e.g. Government Mandatory Inspection Points/GMIPs, surveillance, 
and Foreign Object Debris/FOD prevention). The final report will 
include specific recommendations on modifying and improving the current 
contract and government-contractor relationships at these various 
levels.

    The trend in government over the last 15 years has been toward 
decreased government execution, with contractors performing more 
execution and the government providing oversight.
    NASA has also followed this trend, but as headcount NASA has been 
reduced, there has also been a shift from NASA's intensive monitoring 
to NASA's sampling and auditing, with an increased dependence on 
partnering, moving NASA further from actual technical performance and 
into performance monitoring. Prime contactor cuts have, in turn, 
resulted in ``self oversight'' of critical suppliers. Emphasis on 
partnering has blurred lines of responsibility and accountability 
between NASA and its contractors.
    Additionally, performance-based contracting has proven difficult in 
terms of emphasizing and measuring the right things with the 
appropriate benchmarks, such as outcomes, milestones, result, launches 
and compliance at lower/intermediate levels. In general, award fee 
scores are high, but it is important to understand what is being 
measured, as well as what impact the scoring system itself has on 
performance.
    Question 4. At the Board's March 6 hearing, Henry MacDonald, a 
former Director of the NASA Ames Research Center, stated that the 
NASA's recordkeeping was poor and that its records cannot be searched 
by modern tools like Web browsers. He said that there was no easy way 
for managers to search NASA records for the four previous occasions 
where pieces of foam insulation fell off of the external tank. Could 
you please comment on this testimony, and the role that this database 
and other inadequately designed management tools may have played in 
NASA's decisions regarding the Columbia?
    Answer. NASA's system for tracking problems and corrective actions 
across the Space Shuttle Program (SSP) is cumbersome to use, not well-
integrated across various centers and program elements, and difficult 
to search or use for analytical purposes. That said, it is difficult to 
show that these shortcomings played a direct role in management 
decisions relating to Columbia, or otherwise contributed to the 
accident.

    The Problem Reporting and Corrective Action (PRACA) System is the 
SSP's system for reporting problems and tracking corrective actions on 
Space Shuttle hardware and software. Throughout the investigation, the 
CAIB heard repeatedly from NASA employees and contractors about 
difficulties with this system, and experienced many of these same 
problems during limited first-hand attempts to use it.
    In an effort to integrate PRACA databases across different centers, 
NASA initiated the Web Program Compliance and Status System (WEBCASS). 
While it provides the user access to consolidated information with some 
higher-level search capability, it is still reportedly difficult to 
use.
    Database shortcomings cannot be directly implicated in decisions 
relating to foam. The history of falling foam was well known, and most 
managers could recall from memory the major incidents, particularly 
those involving bipod ramp foam. The fact that there was a well-known 
history, without catastrophic consequences, is reflected in repeated 
statements that foam has never been a safety of flight issue.

    Question 5. You mentioned during the hearing the extensive use of 
accelerometers on the Shuttle's exterior. What is the extent of 
capability in temperature sensors on the exterior? Are they sensitive 
enough to detect any abnormality due to damage tiles?
    Answer. There were 94 temperature sensors on Columbia, 50 of which 
were surface temperature sensors. Forty-one were mounted in tiles, 
eight were structure temperature sensors, and one was on an insulation 
blanket. All of these surface temperature measurements were recorded on 
the Modular Auxiliary Data System, which was recovered in southeast 
Texas.

    Any disturbance in surface smoothness will manifest itself as a 
downstream flow field disturbance. Thus, if the temperature sensor is 
close enough to the damage and the damage is large enough, it is 
possible that the sensor would detect a disturbance. However, the tiles 
are very good insulators, so small damage in a tile that also has a 
temperature sensor embedded in it may not sense the damage.
    Observers have noted the many similarities and differences between 
the Rogers Commission and the Columbia Accident Investigation Board.

    Question 6. What lessons did you learn from the Rogers Commission 
and apply to your investigation into the Columbia tragedy?
    Answer. The Columbia Accident Investigation Board benefited 
significantly from the Rogers Commission and even includes members who 
participated in the Challenger accident investigation. All CAIB members 
read the Rogers Report and spoke to people with knowledge regarding how 
the Challenger investigation was organized. The lessons learned are 
many, including:

 <bullet>   Don't assume anything

 <bullet>   Don't fall in love with the first plausible cause scenario

 <bullet>   Break up into independent work groups

 <bullet>   Independently verify certain matters

 <bullet>   Crosscheck testimony

 <bullet>   Public hearings are valuable

    Question 6a. Based on your investigation, do you believe that NASA 
is continuing to operate under the ``lessons learned'' from the 
Challenger accident, or have these lessons been forgotten?
    Answer. This issue is currently under review by the CAIB. It would 
be premature to express what the Board might finally decide, however, 
this is certainly a matter at which the Board is taking under 
consideration.

                                  <all>

</pre></body></html>
